                                                 OFFICE OF INSPECTOR GENERAL
                                                                         MEMORANDUM




DATE:          September 12, 2003

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on Audit of Auctions IT Capital Investment Practices

The Office of Inspector General (OIG) has completed an audit of Auctions information
technology (IT) capital investment practices. A copy of our Audit Report, entitled “Audit of
Auctions Information Technology Capital Investment Practices” (Audit Report No. 02-AUD-03-
12), is attached. The objectives of this audit were to identify factors contributing to the rise in
Auctions fiscal year (FY) program costs and to assess the Federal Communications
Commission’s (FCC or Commission) information technology (IT) capital investment practices
for managing the Auctions program.

To accomplish these objectives, we contracted with the public accounting firm of KPMG, LLP
(KPMG). Under our supervision, KPMG developed an audit plan that was designed to measure
these objectives. They included the identification of IT costs attributable to Auctions and the
factors contributing to the increase in these costs during the period reviewed. Finally, KPMG
evaluated the effectiveness of the Commission’s IT capital investment practices.

Our audit indicates that Auctions program expenditures for the period of FY1997 to FY2003;
indicate that expenditures have increased at an average rate of 28.61% per year over that period.

Spending related to IT, primarily contractor services, has driven the increases. Other significant
drivers have been non-IT related costs for direct and indirect FCC facility and personnel costs.

The audit identified several areas for FCC management to consider that may result in the
increased effectiveness of the management of Auctions program costs and FCC IT spending.
   •   Reevaluate Auctions Funding Justifications for Major FCC Systems: A number of FCC
       computer applications have not their Auctions budget funding percentages reviewed,
       despite changing conditions. They include the Universal Licensing System (ULS) and
          the Revenue Accounting & Management Information System (RAMIS).
      •   Establish an Effective Capital Investment Program: The FCC does not have an effective
          capital investment program. This violates federal laws and regulations such as the
          Clinger-Cohen Act and OMB Circular A-130. Also, an ineffective capital investment
          program creates an environment where purchases of duplicate IT hardware can occur.

          In particular, the Wireless Telecommunications Bureau (WTB) and the Information
          Technology Center (ITC) both independently budgeted for and purchased four (4)
          storage area networks (SANs) at a cost of $5,210,000. By purchasing one SAN to
          support FCC headquarters operations, the Commission could possibly have reduced these
          expenditures by approximately $1,760,000. Also, before ITC spends an additional
          $500,000 on a SAN in Gettysburg, both ITC and WTB should study and formally report
          upon the feasibility and cost effectiveness of using WTB’s existing Gettysburg SAN for
          contingency planning. This would increase the potential unrealized cost savings to
          $2,260,000.

         Use Consistent Auctions Cost Accounting Methods: FCC management needs to
          determine the most appropriate cost accounting method for calculating Auctions program
          rental/leasing costs across FCC facilities. Once determined, the most appropriate method
          should be consistently used on rental/leasing costs.

This audit had one finding, that the Commission did not consistently implement a formal,
documented IT capital planning process. Management agreed in part with the finding and
concurred with the recommendation. Appendix 6 reproduces management’s comments in their
entirety. Appendix 7 contains the OIG response to those comments.

If you have any questions, please contact Thomas Cline, Assistant Inspector General for Audits,
at (202) 418-7890.



                                              H. Walker Feaster III
                                              Inspector General


Attachment

cc:       Managing Director
          Chief, Wireless Telecommunications Bureau
          Auction and Industry Analysis Division, WTB
          Chief Information Officer
          AMD-PERM
 Federal Communications Commission
      Office of Inspector General




Report on Audit of Auctions Information Technology
           Capital Investment Practices




               Report No. 02-AUD-03-12
                  September 12, 2003
                                               TABLE OF CONTENTS

                                                                                                                                           Page


EXECUTIVE SUMMARY ............................................................................................................. 3
AUDIT BACKGROUND ............................................................................................................... 7
Audit Objective ............................................................................................................................... 7
Audit Scope ..................................................................................................................................... 7
Audit Methodology ......................................................................................................................... 8
AUCTIONS PROGRAM MANAGEMENT ................................................................................ 10
Management of Auctions Program................................................................................................ 10
Program Funding........................................................................................................................... 10
Program Receipts .......................................................................................................................... 11
Program Costs ............................................................................................................................... 13
RESULTS OF EXAMINATION OF AUCTIONS PROGRAM COSTS..................................... 17
OBSERVATIONS FOR INCREASED EFFECTIVENESS......................................................... 36
The Role of IT Capital Planning in the Federal Government........................................................ 38
IT Capital Investment Practices of the FCC.................................................................................. 39
RESULTS OF AUDIT OF THE COMMISSION’S INFORMATION TECHNOLOGY (IT)
CAPITAL INVESTMENT PRACTICES ..................................................................................... 43
RECOMMENDATION: ESTABLISH AN EFFECTIVE IT CAPITAL INVESTMENT
PROGRAM ................................................................................................................................... 46
ACRONYMS ................................................................................................................................ 47
APPENDICES............................................................................................................................... 49
EXECUTIVE SUMMARY

                     Upon receiving the FY2002 Auctions program budget request, the
    Summary of       Office of Management and Budget (OMB) noted, “…we have
      Audit          concerns about the growth in auctions costs, which have increased
                     about 30 percent a year over the past several years 1.” As a result,
the Office of Inspector General (OIG) was requested to review Auctions program
expenditures.

The primary objectives of this audit were to identify factors contributing to the continual
rise in Auctions fiscal year program costs and to assess the Federal Communications
Commission’s (FCC or Commission) information technology (IT) capital investment
practices for managing the Auctions program.

The scope of the audit included a review of the Auctions program expenditures from
fiscal year (FY) 1994 through FY2002 and Auctions budget requests from FY1994
through FY2003. The audit was inclusive of all Auctions program costs, regardless of
the Auctions funding source (i.e., Credit Reform funds, Carryover funds, and Auctions
fund 54). Our review of factors affecting the costs of the Auctions program was limited
to factors that were considered to be material in nature. Because IT investment practices
affected the amount of expenditures, the scope was expanded to include the
Commission’s IT capital investment program. The scope of work did not include an
assessment of the cost accounting methodologies utilized to allocate overhead and did not
include an assessment of the expenditures for accuracy. Audit fieldwork was conducted
at the FCC’s Portals facility in Washington, D.C. from October 11, 2002 through April 4,
2003.


     Review of       To identify the factors contributing to the rising Auctions program
                     costs, the audit team reviewed and analyzed Auctions fiscal year
     Auctions
                     expenditure data, budget requests, and source purchasing
     Program         documentation. Additionally, an audit survey was distributed to
    Expenditures     FCC Bureaus and Offices outside of the Wireless
Telecommunications Bureau (WTB) to gain an understanding of their use and
management of Auctions funds. The survey responses provided a high-level
determination of the management of Auctions funds at the Bureau and Office level.

The amount of fiscal year Auctions receipts resulting from spectrum auctions has greatly
fluctuated since the program’s inception in FY1994. The highest amount of fiscal year
receipts occurred in FY1995 near the inception of the Auctions program. Approximately
80% of total receipts occurred between FY1995 and FY1997 and there were no receipts
in FY2002. However, program expenditures for the period of FY1997 to FY2001, as
reported in the Annual Expenditure Reports submitted to Congress, indicate that
expenditures have increased at an average rate of 31.91% per year over the period.


1
    Office of Management and Budget Memorandum, dated November 8, 2001: FCC Apportionment

                                                 3
Inclusion of FY2002 obligations and FY2003 budgeted costs indicate that on average
program costs will continue to increased at a rate of 28.61% per year since FY1997.

Our audit indicates that spending related to IT, primarily contractor services, have driven
the increases in Auctions program costs between FY1999 through FY2002. Other
significant drivers have been non-IT related costs for direct and indirect FCC facility and
personnel costs. During the period of FY1997 through FY2002, the largest increases in
Auctions program costs, in order of contribution, were found to be related to expenditure
classes for contracted services, personnel compensation and benefits, equipment, and
rent, communications, and utilities.

The audit observed several areas where the management effectiveness for Auctions
program costs could be improved. These are:

       Reevaluate Auctions Funding Justifications for Major FCC Systems: A
       number of FCC computer applications have not had their Auctions budget
       funding percentages reviewed, despite changing conditions. For example, the
       Universal Licensing System (ULS) is funded with 90% auctions funds. This
       guidance does not consider the percentage of auctionable vs. non-auctionable
       applications/transactions processed by ULS. Nor does the percentage reflect
       current FCC spectrum usage policy, as stated in the Spectrum Policy Task Force
       report dated November 15, 2002. Similarly, the Revenue Accounting &
       Management Information System (RAMIS) was initially funded with 100%
       auctions funds. Its auction funding percentage has not been reevaluated, even
       though the loan module, used to justify 100% funding, is not being utilized to
       manage the spectrum auction loan portfolio.

       Use Consistent Auctions Cost Accounting Methods: FCC management needs
       to determine the most appropriate cost accounting method for calculating
       Auctions program rental/leasing costs across FCC facilities. Once determined,
       the most appropriate method should be consistently used on rental/costs. This is
       not occurring. For example, shared security upgrades to the FCC’s Gettysburg
       building were charged 100% to Auctions. The FCC auctions overhead rate of
       14% for shared services was not used. This increased rent expenditures for
       Gettysburg that were charged to Auctions rose from $38,596 in FY 2001 to
       $1,787,713 in FY 2002.

       Establish an Effective Capital Investment Program: The FCC does not have
       an effective capital investment program. This violates federal laws and
       regulations such as the Clinger-Cohen Act and OMB Circular A-130. Also, an
       ineffective capital investment program creates an environment where purchases of
       duplicate IT hardware can occur.

       For example, WTB and ITC both independently budgeted for and purchased
       storage area networks (SANs) for the FCC. The two groups budgeted and/or
       spent $5,210,000 on four SAN computer systems. By purchasing one SAN to
       support FCC headquarters operations, the Commission could possibly have

                                             4
reduced these expenditures by approximately $1,760,000. Also, before ITC
spends an additional $500,000 on a SAN in Gettysburg, both ITC and WTB
should jointly study and formally report upon the feasibility and cost effectiveness
of using WTB’s existing Gettysburg SAN for contingency planning. This may be
practical since the Commission is eliminating the Novell operating system, a
major stumbling block to sharing the SANs. The potential unrealized cost savings
could total $2,260,000.

Outside of the original ITC requirement for compatibility with Novell NetWare,
the requirements cited by WTB and ITC do not appear to have differed enough to
preclude a shared technology. ITC noted in preliminary comments to the Draft
Report that it considers the ITC SAN to have the potential capability to support
the entire Commission infrastructure. An effective capital investment program
could have identified potential duplications. This could have resulted in the use
of a shared technology with a corresponding significant reduction in expenditures.

This audit had one finding, that the Commission did not consistently implement a
formal, documented IT capital planning process. Management agreed in part with
the finding and concurred with the recommendation. Appendix 6 reproduces
management’s comments in their entirety. Appendix 7 contains the OIG response
to those comments.




                                     5
  Review of IT       The audit’s scope also included the Commission’s IT capital
                     investment practices, specifically as they relate to management of
     Capital
                     the Auctions program. Processes and procedures were assessed
   Investment        against federal guidelines developed by entities such as OMB, the
    Practices        Government Accounting Office (GAO), and other Federal IT capital
planning best practices. Additionally, information gathered from key FCC personnel was
used to assess the Commission’s past, present, and future IT capital investment practices.

The FCC has taken positive steps towards improving its management of IT capital
investments. However, the Commission as a whole has not consistently implemented
formal, documented IT capital planning processes and procedures with defined criteria
for the selection, control, and evaluation of investments. Also current IT capital planning
processes and procedures, do not fully comply with applicable laws and regulations,
including the Clinger-Cohen Act and OMB Circular A-130. The $2,260,000 potential
unrealized cost savings for the SANs can be directly attributed to the FCC’s ineffective
capital investment process.

Therefore, to better manage Commission IT investments, we recommend that the FCC
develop an effective IT capital investment program. The Commission’s capital
investment program would manage all of the Commission’s IT investments, including
Auctions expenditures. It would comply with all relevant laws and regulations and
include an executive oversight board that would approve all IT capital expenditures of
$1,000,000 or more. Finally, the CPIC guide should be reviewed and commented upon
by all applicable stakeholders, including the Chief of Staff and the Commission’s other
Bureaus and Offices. This will help insure agency-wide support and adoption of the
guidance once implemented.

Implementation of the above recommendations should result in uniform, centralized
procedures for the selection, control, and evaluation of its IT investments. An effective
capital investment program can also help identify duplicate IT capital expenditures, such
as the $5,210,000 investment of the four (4) SANs.




                                             6
AUDIT BACKGROUND
                              Audit Objective
     Audit Objective,
       Scope, and          The primary objectives of this audit were to identify factors
      Methodology          contributing to the continual rise in Auctions fiscal year (FY)
program costs and to assess the Federal Communications Commission’s (FCC or
Commission) information technology (IT) capital investment practices for managing the
Auctions program. Upon receiving the FY2002 Auctions program budget request, the
Office of Management and Budget (OMB) noted, “…we have concerns about the growth
in auctions costs, which have increased about 30 percent a year over the past several
years1.” OMB also expressed concern that non-Auctions groups were obtaining benefits
from initiatives fully funded with Auctions funds, including the financial statement audit
and the Universal Licensing System (ULS). As a result, OMB requested the Office of
Inspector General (OIG) to review Auctions program expenditures. The OIG then
engaged KPMG, LLP to perform the audit and issue a report of its determinations,
observations, and findings, if any.

The specific objectives of the audit, as outlined in the task order, were to:
   1. Obtain an understanding of the FCC’s Auctions program and the Auctions IT
       infrastructure;
   2. Examine IT spending in support of the Commission’s Auctions program;
   3. Evaluate the IT spending of the Auctions program;
         a. Determine if costs of IT during the period can be directly linked to program
             accomplishments and mission requirements.
         b. Identify other factors contributing to the increase in IT costs during the
             period. Determine the extent to which costs increases can be attributed to
             external factors (e.g. general increase in IT spending) or non-recurring
             factors (e.g. Year 2000).
   4. Obtain an understanding of the Commission’s IT capital investment program and
       practices, including the program for managing Auctions’ IT investments; and
   5. Evaluate the effectiveness of the Commission’s IT capital investment program,
       particularly as it relates to Auctions investments, against best practices of IT
       capital investment in the Federal government.


Audit Scope

The scope of the audit included a review of the Auctions program expenditures from
FY1994 through FY2002 and Auctions budget requests from FY1994 through FY2003.
The original scope of the engagement called for the review of Auctions expenditures to
cover the time period from FY1997 – FY2001. During the engagement entrance
conference the Wireless Telecommunications Bureau (WTB) requested that the scope of
the audit be extended back to FY1994 to provide a historical perspective of the Auctions
program since inception. This recommendation was concurred to by the OIG and the

1
    Office of Management and Budget Memorandum, dated November 8, 2001: FCC Apportionment

                                                 7
original scope was revised to cover the time period of FY1994 – FY2001. FY2002 and
FY2003 were also included in the scope of the audit because expenditure and budget
data, respectively, for those years became available prior to the start of fieldwork. The
audit scope included all Auctions program costs, regardless of the Auctions funding
source (i.e., Credit Reform funds, Carryover funds, and Auctions fund 54).

The review of factors affecting the costs of the Auctions program was limited to factors
that were considered to be material in nature. The scope of work did not include an
assessment of the cost accounting methodologies utilized to allocate overhead and did not
include an assessment of the expenditures for accuracy. For example, during the audit
the scope of work for contracted services was reviewed, but a determination was not
made as to what extent whether work being performed was in support of the Auctions
program. Financial data prior to FY1999 was reviewed for the purpose of obtaining a
historical perspective of the program. The audit focused on data from more recent fiscal
years (FY1999 – FY2003), to identify those factors that have contributed to rising
program costs. The FY1999 – FY2003 period was relative to the period in which OMB
noted the approximate 30% growth in actual and projected Auctions program costs.
Additionally, financial data regarding program costs was more consistently available in
uniform formats that allowed comparison of fiscal year data and trend analysis during
this period.

The audit’s scope also included the Commission’s IT capital investment practices,
specifically as they relate to management of the Auctions program. Processes and
procedures were assessed against federal guidelines developed by governing bodies such
as OMB, the Government Accounting Office (GAO), and other Federal IT capital
planning best practices. Additionally, information gathered from key FCC personnel was
used to assess the Commission’s past, present, and future IT capital investment practices.

Audit fieldwork was conducted at the FCC’s Portals facility in Washington, D.C. from
October 11, 2002 through April 4, 2003.


Audit Methodology

To identify the factors contributing to the rising Auctions program costs, the audit team
reviewed and analyzed Auctions fiscal year expenditure data, budget requests, and source
purchasing documentation.

Additionally, an audit survey was distributed to Bureaus and Offices outside of WTB to
gain an understanding of their use and management of Auctions funds. The responses to
the survey provided a high-level determination of the management of Auctions funds at
the Bureau and Office level. While the survey results were used to identify areas of
additional focus during the conduct of the audit, the data was not directly used to identify
factors contributing to increased program costs.

KPMG reviewed the Commission’s IT capital investment practices for compliance with
established guidelines developed by OMB, GAO, and other Federal IT capital planning

                                             8
best practices. Audit fieldwork consisted of interviewing key personnel and performing
an analysis of policy and procedure documentation. An understanding of the procedures
used to request and manage Auctions funds, both past and present, was obtained.

The Commission’s IT capital investment practices were assessed against federal laws and
directives, industry best practices, and policies and procedures of the agency that were
relevant for the periods under review. Specific audit criteria included the following:

   OMB Circular A-94: Guidelines and Discount Rates for Benefit-Cost Analysis of
   Federal Programs (October 29, 1992)
   OMB Evaluating Information Technology Investments (November 1995)
   OMB Circular A-130, Revised Transmittal 3: Management of Federal Information
   Resources (February 8, 1996)
   Clinger-Cohen Act of 1996 (August 8, 1996)
   GAO – Assessing Risks and Returns: A Guide for Evaluating Federal Agencies’ IT
   Decision-making (February 1997)
   OMB Memo 97-02: Funding Information Systems Investments (October 25, 1996)
   CIO Council – First Practices (February 28, 1997)
   GAO – Information Technology Investment Management: An Overview of GAO’s
   Assessment Framework (May 2000)
   GAO – Information Technology Investment Management: A Framework for
   Assessing and Improving Process Maturity (May 2000)
   OMB Circular A-130, Revised Transmittal 4: Management of Federal Information
   Resources (November 28, 2000)
   OMB Memo 00-07: Incorporating and Funding Security in Information Systems
   Investments (February 28, 2000)
   OMB Circular A-11: Preparing and Submitting Budget Estimates (July 12, 1999 and
   subsequent fiscal year revisions)




                                           9
AUCTIONS PROGRAM MANAGEMENT
                          Management of Auctions Program
     Auctions
     Program            The Auctions & Industry Analysis Division (A&IAD) of the
   Management,          WTB is responsible for implementing the competitive bidding
    Funding,            authority provided to the FCC and managing the spectrum
   Receipts, and        auctions. The division, which is composed of the Auctions &
      Costs             Industry Analysis Division, Auctions Operations Branch,
                        Auctions Automation Branch, and Auctions Expenditure
Management Branch, is responsible for all facets of the Auctions program.

Section 309(j)(8)(b) of Title 7, Chapter 5 of the United States Code, grants the FCC the
authority to retain Auctions revenue to offset the cost of implementing the Auctions
program. Since their issuance, there have not been any further legislative rulings that
further clarify and define the costs than can be offset. In FY1996, the FCC published the
Auctions Cost Recovery Guidelines which outline the Commission’s understanding of
retention authority language. The guidelines, which were updated in FY1999, identify
and classify the types of costs that can be offset by Auctions proceeds.

Since FY1997, the FCC has been required to submit Annual Expenditure Reports to
Congress to report Auctions program costs. The reports are a requirement for approval of
the Agency’s appropriated budget by Congress. Historically, the FCC has submitted the
Annual Expenditure Reports in the fourth quarter of the fiscal year following the year for
which costs are being reported. This in effect, creates a significant lapse in time between
the end of fiscal year in which expenditures have been incurred and the availability of the
data to Congress for review.

A more detailed description of management of the Auctions program can be found in
Appendix 1 of this report (Overview of the Auctions Program).


Program Funding

Auctions budget requests submitted to OMB for FY1997 through FY2003 were obtained
during the audit. The FY1997 and FY2003 Auctions program budget requests categorize
estimated costs by budget object class codes (BOCC), which is consistent with the
method used for collecting and reporting costs in the Annual Expenditure Reports
submitted to Congress. However, budget estimates submitted in the FY1998 – FY2002
budget requests were segmented into agency-defined ‘Auctions Reporting Categories’,
rather than BOCCs.

The following table and line graphs denote the funding amounts requested by the
Commission to support the Auctions program for the period of FY1997 through FY2003.
The data and graphs depict that the amount of funds requested each year has increased
every year of the program since FY1998. In FY1998, the Commission identified that
$31.75M was required to support the Auctions program. In FY2003, the Commission

                                            10
 estimated that the funding required to support the program had risen to $112.45M. The
 increase from FY1997 to FY2003 represents a seven-year increase of 247.03%. The
 greatest percentage of growth occurred between FY2000 and FY2001 at a rate of
 47.12%. Figure 1 contains fiscal year budget request estimates and the percentage of
 increase over the previous year’s budget request. The data is graphically illustrated in
 Figure 2.


                   FY1997                        FY1998          FY1999        FY2000      FY2001      FY2002   FY2003
Budget Request
    Amount        $32,402,655 $31,753,385 $38,694,161 $47,790,093 $70,306,781 $100,470,713 $112,446,958
% Change from
 Previous Year         --                        -2.00%          21.86%        23.51%      47.12%      42.90%   11.92%
                 Figure 1 – FY Auctions Program Budget Requests and Percentage Change



                                                           Auctions Program Budget Requests

                                         $120.0

                                         $100.0
                      Dollars Millions




                                          $80.0

                                          $60.0

                                          $40.0

                                          $20.0

                                            $-
                                                 FY97     FY98      FY99     FY00   FY01    FY02    FY03
                                                                      Fiscal Year


                                          Figure 2 – FY Auctions Program Budget Request


 Program Receipts

 Subparagraph A of Section 309(j)(8) of the Omnibus Budget Reconciliation Act of 1993
 states that all proceeds from the use of a competitive bidding system shall be deposited in
 the Treasury in accordance with Chapter 33 of Title 31, United States Code.

 Auctions program receipts are those proceeds that are collected from completed auctions
 and transferred to the Treasury’s general receipt fund. The first year in which receipts
 were transferred to Treasury was in FY1995 as a result of the initial spectrum auction
 conducted in July of 1994. According to FCC financial records, as of September 30,
 2002, a total of $14.41B had been transferred to Treasury’s general receipt fund. The
 total amount of Treasury receipts for each fiscal year is indicated in Figure 3 and is
 graphically depicted in Figure 4. Figure 5 illustrates that total Auctions program
 expenditures have amounted to 2.6% of total receipts transferred to Treasury.




                                                                          11
              FY1995         FY1996        FY1997          FY1998       FY1999       FY2000       FY2001       FY2002   Total
 Auctions
 Receipts     $7.64          $ .23          $3.53            $ .78        $1.05      $ .15          $1.02        $0     $14.41
 (Billions)
                              Figure 3 – Auctions Program Fiscal Year Receipts


                                                           Auctions Cash Receipts

                                  $9.0
                                  $8.0
                                  $7.0
                                  $6.0
                  Billions
                  Dollars




                                  $5.0
                                  $4.0
                                  $3.0
                                  $2.0
                                  $1.0
                                  $0.0




                                                                                                          02
                                     94


                                              95


                                                        96


                                                                97


                                                                         98


                                                                                99


                                                                                       00


                                                                                                         01

                                                                                                       FY
                                   FY


                                            FY


                                                      FY


                                                              FY


                                                                       FY


                                                                              FY


                                                                                     FY


                                                                                                       FY

                                                                                                    ns
                                                                     Fiscal Year




                                                                                                  io
                                                                                                at
                                                                                              ig
                                                                                            bl
                                                                                            O
                                Figure 4 – FY Auctions Program Cash Receipts


                                   Total Auctions Cash Receipts to Expenditures
                                                  FY1994 - FY2002
                      Total Expenditures
                       Through FY02
                        $385,222,403
                            2.60%




                                                                                          Total Cash
                                                                                        Receipts Through
                    Note: In FY1994 and FY2002, cash
                                                                                             FY02
                    receipts were obtained, but were not
                                                                                        $14,406,548,992
                    transferred to Treasury and
                                                                                            97.40%
                    accordingly are not included here.



                         Figure 5 – Total Auctions Cash Receipts to Expenditures

The data demonstrates that fiscal year receipts have fluctuated greatly since the
program’s inception. Year to date, the transfer of the highest amount of receipts occurred
in FY1995 at the inception of the Auctions program. Approximately 80% of total
receipts occurred between FY1995 and FY1997. In FY2002, there were proceeds from
spectrum auctions. However, none of these funds were transferred to the Treasury. The
decision not to transfer funds was due to concerns that there could be a lack of sufficient


                                                                12
       income to cover Auctions expenditures in the foreseeable future and the uncertainty of
       when future auctions would be conducted.


       Program Costs

       In accordance with Section 309(j)(8) of the Omnibus Budget Reconciliation Act of 1993,
       which amended the Communications Act of 1934, the Commission was given the
       authority to use auction proceeds to fund the cost of developing and implementing the
       auction program.

       The Commission’s records of actual Auctions expenditures for the period of FY1997 to
       FY2001, as reported in the Annual Expenditure Reports submitted to Congress indicate
       that expenditures have increased at an average rate of 31.91% per year over the period.
       Inclusion of FY2002 obligations and FY2003 budgeted costs indicate that on average
       program costs will have increased at a rate of 28.61% per year since FY1997. Figures 6
       and 7 provide illustrations of trends in Auctions program expenditures by fiscal year.

                                                    Auctions Expenditures


                                    $120.0
                                    $100.0
                                     $80.0
                         Millions
                         Dollars




                                     $60.0
                                     $40.0
                                     $20.0
                                       $-
                                                       03
                                                       02
                                                      94

                                                      95

                                                      96

                                                      97

                                                      98

                                                      99

                                                      00


                                                 ns 1
                                                      0
                                                    FY

                                                    FY
                                                    FY

                                                    FY

                                                    FY

                                                    FY

                                                    FY

                                                    FY

                                                    FY

                                                    FY



                                                  d
                                                te
                                               io

                                              ec
                                            at

                                           oj
                                          ig
                                       Pr
                                        bl
                                      O




                                                          Fiscal Year


                                      Figure 6 – FY Auctions Program Expenditures



              FY1995    FY1996         FY1997    FY1998   FY1999        FY2000   FY2001     FY2002          FY2003
                                                                                          (Obligations)   (Projected)
 % Change
   from       240.56%   -23.16%         37.04%   43.84%   32.33%        20.46%   30.99%     23.86%         20.19%
Previous FY
                           Figure 7 – FY Percentage Change in Auctions Program Expenditures


       Our audit identified that categorically, by BOCC, the greatest dollar amount increases
       have occurred in the following areas:
                  ‘Contracts – Other Services’ (BOCC 2500)
                  ‘Personnel Compensation’ (BOCC 1100) and ‘Personnel Benefits’ (BOCC
                  1200)

                                                          13
          ‘Equipment’ (BOCC 3100)
          ‘Rent, Communications and Utilities’ (BOCC 2300)

Figures 8 – 11 are pie charts that portray FY1999 – FY2002 expenditures by BOCC code.


                                   FY1999 Auctions Expenditures by BOCC
                                              Equipment
                                                                  Personnel
                                               BOCC              Compensation
                             Supplies &      $2,595,366                                Personnel Benefits
                                                                    BOCC
                              Materials         5.42%                                      BOCC
                                                                  $11,293,017
                               BOCC                                                      $1,874,953
                                                                    23.59%
                             $219,233                                                       3.92%
                               0.46%
                                                                                          Travel &
                                                                                       Transportation of
                                                                                           Persons
                                                                                             BOCC
                                                                                           $110,103
                                                                                             0.23%

                                                                                       Transportation of
                                                                                             Things
                                                                                            BOCC
                                                                                            $1,173
                                                                                               0.01%

                                                                                           Rent,
               Contracts - Other                                                        Communications,
                  Services
                                                                       Printing              Utilities
                     BOCC
                                                                            BOCC             BOCC
                 $29,032,273                                               $275,792         $2,471,814
                   60.64%                                                  0.58%             5.16%


                 Figure 8 –FY1999 Auctions Program Expenditures by BOCC




                                    FY2000 Auctions Expenditures by BOCC
                                        Equipment               Personnel
                                          BOCC                 Compensation            Personnel Benefits
                                        $5,866,839                                            BOCC
                                                                 BOCC
                                          10.17%                  1100
                                                               $16,926,815                 $2,771,524
                                                                                               4.81%
                                                                 29.35%
              Supplies &
              Materials                                                                   Travel &
                BOCC                                                                  Transportation of
               $211,924                                                                   Persons
                                                                                           BOCC
                 0.37%
                                                                                          $209,324
                                                                                            0.36%

                                                                                      Transportation of
                                                                                           Things
                                                                                           BOCC
                                                                                           $2,896
                                                                                            0.01%
                                                                                          Rent,
                   Contracts –
                   Other Services                                                     Communications,
                                                                Printing                  Utilities
                      BOCC
                                                                 BOCC                     BOCC
                    $27,511,618
                                                               $337,477                  $3,829,130
                      47.71%
                                                                 0.58%                      6.64%


                 Figure 9 –FY2000 Auctions Program Expenditures by BOCC



                                                          14
                  FY2001 Auctions Expenditures by BOCC
                        Equipment
                        B OCC 3100                  Personnel
                      $7,672,449                  Compensation
                        10.16%                         B OCC 1100
   Supplies &
                                                      $21,701,608
    Materials                                                                    Personnel Benefits
                                                        28.73%
   B OCC 2600                                                                        B OCC 1200
   $225,553                                                                         $3,984,174
    0.30%                                                                             5.27%

                                                                                     Travel &
                                                                                 Transportation of
                                                                                     Persons
                                                                                    B OCC 2100
                                                                                     $287,228
                                                                                      0.38%

                                                                                 Transportation of
                                                                                      Things
                                                                                    B OCC 2200
 Contracts - Other                                                Rent,       $3,670
     Services                                                 Communications, 0.01%
    B OCC 2500                                                   Utilities
                                           Printing
   $36,184,420                                                      B OCC 2300
                                          B OCC 2400
     47.90%                                                         $5,287,129
                                          $192,926
                                           0.25%                      7.00%


Figure 10 – FY2001 Auctions Program Expenditures by BOCC




                    FY2002 Auctions Obligations by BOCC
                  Equipment                       Personnel
                  B OCC 3100                    Compensation
                 $10,837,597                          B OCC 1100
Supplies &         11.58%                        $23,232,565
                                                                             Personnel Benefits
 Materials                                         24.83%
                                                                                     B OCC 1200
B OCC 2600
                                                                                    $4,522,059
$426,086
                                                                                      4.83%
 0.46%
                                                                                 Travel &
                                                                             Transportation of
                                                                                 Persons
                                                                                    B OCC 2100
                                                                                    $187,851
                                                                                     0.20%
                                                                                 Transportation of
                                                                                      Things
                                                                                    B OCC 2200
                                                                                     $11,576
                                                                                      0.01%
                                                                                     Rent,
    Contracts - Other                                                            Communications,
        Services                                       Printing                     Utilities
       B OCC 2500                                 B OCC 2400                        B OCC 2300
      $47,557,321                                     $100,689                      $6,685,371
        50.83%                                         0.11%                          7.15%


 Figure 11 – FY2002 Auctions Program Obligations by BOCC




                                     15
Allocation of Centralized Costs to the Auctions Program
Expenditures by BOCC include both direct costs and indirect costs for centralized
services. During the examination of Auctions expenditures, it was determined that costs
for centralized services, initially not charged to the Auctions program, are currently being
allocated as overhead expenses to the program. In FY1999, the only centralized cost
charged to the Auctions budget was rent. In recent fiscal years, an increasing number of
services have been identified as centralized services that benefit all members of the
Commission. Additionally in FY2002, a large number of services previously charged
and tracked by individual bureaus were reorganized for centralized management under
the fiscal responsibility of Administrative Operations and included as overhead costs. As
a result, centralized serviced increased to $13.43 million in FY2002, from $3.98 million
in FY2001. As of FY2003, centralized services costs added to the Auctions budget
included:

       IT expenditures                                   Facilities fees
       Metered mail                                      Security investigations
       Utilities                                         Space repair
       Copiers                                           Repair of office equipment and
       Physical security contracts                       furniture
       Security enhancements as a result                 Purchase of office furniture and
       of the September 11, 2001                         other equipment.
       terrorist attacks

Figure 12 summarizes the fiscal year overhead allocation rate, overhead costs, and
percentage of increase in costs between FY1999 and FY2002, as well as the projected
cost for FY2003:

                                            Auctions
                          Auctions        Overhead Cost      Percentage Increase
         Fiscal Year   Overhead Rate          ($M)          from prior Fiscal Year
           FY1999            8%              $1.51M                    --
           FY2000           8.5%             $2.53M                 67.55%
           FY2001           11%              $3.98M                 57.31%
           FY2002           12%             $13.43M                 237.44%
           FY2003           14%             $13.95M                  3.87%
  Figure 12– FY1999-FY2003 Auctions Program Overhead Rates, Costs, and Percentage Change

The overhead rate used to allocate the costs for centralized services is calculated as the
percentage of Auctions full-time equivalents (FTE) to the total number of FTEs
Commission-wide, including the overhead distribution for leave. The rate is then applied
to the full cost of the service to determine the portion to be funded by Auctions funds.
Since FY1999, the number of Auctions FTEs has continued to comprise a growing
percentage of the total number of Commission-wide FTEs. As a result, the overhead
allocation rate has increased and a larger portion of the Commission’s centralized
services being funded the Auctions program has increased.




                                            16
RESULTS OF EXAMINATION OF AUCTIONS PROGRAM COSTS
This section of the report identifies the factors that have contributed to the increase in
Auctions program costs since FY1999. Also provided in this section are
recommendations for increased effective management of Auctions program costs.

  Factors Contributing to the         Spending related to IT, primarily expenditures for
    Increase in Auctions              contractor services, has driven the rise in Auctions
       Program Costs                  program costs between FY1999 through FY2002.
                                      Other significant drivers have been non-IT related
costs for direct and in-direct FCC facility and personnel costs.

As discussed earlier in the report, fiscal year Auctions program costs are collected and
reported by BOCC. For consistency and comparison purposes, this report discusses our
analysis of costs by BOCC.

By BOCC, the largest increases in Auctions program costs, in order of contribution,
occurred in the areas of Contracted Services (BOCC 2500), Personnel Compensation and
Benefits (BOCC 1100 and BOCC 1200), Equipment (BOCC 3100), and Rent,
Communications, and Utilities (BOCC 2300).

           Contracted Services (BOCC 2500)
           The growth of costs in this expenditure class have resulted from an increased
           reliance on contractor services to implement, customize, enhance, and
           administer systems fully or partially funded by the Auctions program.
           Additionally, costs for non IT-related contractor services such as those used to
           manage the Spectrum Auction Loan Portfolio and conduct the financial
           statement audit have continued to rise.

           Personnel Compensation (BOCC 1100) and Benefits (BOCC 1200)
           An increase in the number of FTEs reported as supporting the Auctions
           program has resulted in the growth of expenditures in this class. Reporting of
           time spent on Auctions-related work is believed to be more accurate, and as
           more services have become auctionable, more employees are performing
           Auctions-related work. The growth in FTEs has also resulted in higher
           overhead rates for costs allocated to the Auctions program for personnel
           benefits.

           Equipment (BOCC 3100)
           Since its inception, the Auctions network environment has developed in
           complexity and size. Growth in this expenditure class, which captures
           expenditures for hardware, software, office furniture, and telecommunications
           equipment, has resulted from hardware and software purchases and
           enhancements for the upgrade of the Auctions IT environment. As with
           Contracted Services, growth has also resulted from purchases required to
           implement, customize, enhance, and administer systems fully or partially
           funded by the Auctions program.

                                              17
           Rent, Communications, and Utilities (BOCC 2300)
           The types and amount of indirect facilities costs have increased as the FCC
           has determined that the Auctions program should bear more of the costs for
           shared centralized services. The overhead rate used to allocate indirect costs
           has increased as the ratio of Auctions FTEs to total FTEs has increased. Costs
           in this class of expenses have also grown as a result of an increase in direct
           rental/leasing costs for additional space secured outside of the Washington,
           DC headquarters in the Portals I building. Renovation costs for the Portals I
           location and Gettysburg facility have also led to an increase in direct
           rental/leasing costs.


Contracts – Other Services (BOCC 2500)

Over the period of FY1999 to FY2002, the largest increase in Auctions program costs is
attributable to contractor services. As indicated by Figure 13, between FY2000 and
FY2002, contractor services for the Auctions program increased by an average of
31.48%. In FY2000, contractor services amounted to $27.51M. In FY2002, the yearly
cost had risen by $20.05M to $47.56M. Projected expenditures for contractor services in
FY2003 were $61.14M. Annual contractor services costs for FY1999 through FY2002,
and the projection of FY2003 are illustrated by Figures 14 and 15.

        FY1999                     FY2000                  FY2001               FY2002          Average Annual
     Auctions Total             Auctions Total          Auctions Total       Auctions Total       Percentage
      Contractor                 Contractor              Contractor           Contractor         Increase from
     Services Costs             Services Costs          Services Costs       Services Costs        FY2000 to
         ($M)                       ($M)                    ($M)                 ($M)               FY2002
         $29.0                     $27.51M                $36.18M               $47.56M            31.48%
         Figure 13 – FY2000 - FY2002 Auctions Program Total Contractor Services Costs


                                            Contracts - Other Services

                           $70,000,000
                           $60,000,000
                           $50,000,000
                 Dollars




                           $40,000,000
                           $30,000,000
                           $20,000,000
                           $10,000,000
                                   $0
                                     FY99        FY00          FY01     Obligations Projected
                                                                           FY02       FY03
                                                          Fiscal Year


                      Figure 14 – FY1999 - FY2003 Contractor-Other Services Costs




                                                          18
                           FY1999    FY2000    FY2001       FY2002          FY2003
                                                          (Obligations)   (Projected)
             % Change
               from        56.35% -5.24% 31.52%           31.43%          28.57%
            Previous FY
       Figure 15 – FY Percentage Change in Auction Program Contracts – Other Services Costs

Factors Contributing to the Increased Costs

    1. The Commission has become increasingly reliant upon higher levels of contractor
       staff for IT support of systems funded fully or partially by the Auctions program.
       The systems fully funded by Auctions include the following:

            Automated Auction System (AAS);
            Revenue Accounting & Management Information System (RAMIS); and
            Commission’s Registration System (CORES).

ULS is funded 90% by the Auctions program. Additional systems receive partial
funding, at various levels, from the Auctions program are the Electronic Document
Management System (EDOCS), Consolidated Database System (CDBS), Collections,
Canadian Co-Channel Serial Coordination Systems (COSER), Federal Financial System
(FFS), and the Leave Distribution Reporting System (LDRS).

During the audit, the audit team examined a report of the Commission’s vendor
expenditures. The report broke out each vendor’s costs by the amount attributed to the
appropriated budget and the Auctions program budget. Of the ten (10) vendors that
experienced the largest increase in Auction’s vendor expenditures from FY2001 to
FY2002, seven (7) were IT-related vendors/service providers. Of these seven (7), one (1)
was an equipment vendor. Expenses were incurred for five (5) of the six (6) IT service
providers in both FY2001 and FY2002. Appendix 2 to this report provides a summary of
the vendor data used during this analysis. A comparison of the total expenditures for the
five (5) repeat IT service providers for FY2001 and FY2002 is summarized in Figure 16.
(Note: This data reflects the fiscal year in which expenditures were incurred, rather than
the year that services were rendered.)

            FY2001                             FY2002
Auctions Expenditures to Five (5)   Auctions Expenditures to Five                   Percentage
  Recurring IT Vendors/Service            (5) Recurring IT            $ Increase     Increase
 Providers Experiencing Largest      Vendors/Service Providers      from FY2001        from
            Increase                Experiencing Largest Increase     to FY2002     FY2001 to
              ($M)                              ($M)                     ($M)        FY2002
           $11.36M                          $23.89M                $12.53M          110.30%
       Figure 16 – FY2001-FY2002 Costs for Top 5 Recurring IT Vendors/Service Providers




                                               19
   2. Fiscal year costs for managing the Spectrum Auction Loan Portfolio continue to
      rise. The loan portfolio program was established to address Section 309(j)(4) of
      the Communications Act of 1934, as amended. This section gave the
      Commission certain instructions for implementing regulations for the competitive
      bidding system, including a directive to ensure that small businesses, rural
      telephone companies, and women and minority-owned businesses were provided
      with an opportunity to participate in the provision of spectrum based services. To
      address the mandate, the Commission provided installment financing for winners
      of spectrum auctions.

Costs of managing the loan portfolio (not including personnel costs) have risen, with the
majority of costs attributable to contracted services. The following table provides an
analysis of loan portfolio management costs since FY2001:

                              Cost of Loan                        Percentage of
                               Portfolio           Percentage     Total Auctions
                              Management          Increase from    Program FY
              Fiscal Year        ($M)               Prior FY      Expenditures
                FY2001          $7.60M                 ---           10.06%
                FY2002         $10.90M               43.42%          11.65%
                FY2003
              (projected)         $11.72M          7.52%              10.42%
                       Figure 17 – FY2001-FY2003 Loan Portfolio Costs

Since FY2001, the Commission has maintained multiple contracts with a public
accounting firm and a financial institution for parallel servicing of the loan program to
provide FCC management with the assurance that loans are being accurately managed.
The parallel use of services originally resulted from delays in implementing the loan
module of RAMIS, which was expected be deployed by the end of FY2000. The services
of the public accounting firm to develop loan models were expected to end once the loan
module was implemented. However, subsequent to implementation, the system’s loan
module was found to be ineffective for management of the various types of auctions
program loans and its use for management of the loan program is expected to cease at the
end of FY2003. Thus, the public accounting firm’s work with the loan models was
extended to ensure the accuracy of loan data until the financial institution assumes full
servicing of the loan portfolio.

   3. Fiscal year systems costs for the AAS have increased since FY2000. AAS is in a
      mixed life cycle stage of full acquisition (inclusive of development, testing,
      implementation, and modernization) and maintenance. AAS has continued to
      evolve over its life as a result of changing business requirements and mandated
      auction requirements, changing technology, implementation of new functionality,
      and system security requirements. For instance, the initial auctions were
      conducted as simultaneous multiple–round bidding sessions. However, the FCC
      is moving towards packaged bidding auctions. The result has been customization
      of the current AAS and its eventual replacement by the Integrated Spectrum
      Auctions System (ISAS). Related AAS maintenance and enhancement and ISAS



                                             20
   planning and acquisition activities have been performed by contracted personnel
   and charged as such.

A summary of total system costs for AAS since FY2000, as reported by the FCC in
Exhibit 300s (Capital Asset Plan and Business Case), are summarized in Figure 18
(Note: System costs, as reported in the Exhibit 300, represent an aggregate of
expenditures from various BOCCs):

                                  Total AAS FY        Percentage
                                       Costs        Increase from
                  Fiscal Year          ($M)        prior Fiscal Year
                    FY2000            $4.87M              ----
                    FY2001            $9.10M            86.86%
                    FY2002           $11.30M            24.18%
                    FY2003           $16.00M            41.59%
                   (projected)      (projected)       (projected)
              Figure 18 – Automated Auctions System Costs by Fiscal Year

An analysis of life cycle costs indicate that life-to-date maintenance costs through
FY2002 of $31.40M for AAS exceed the life-to-date planning and full acquisition
costs of $22.10M. FY2003 projections include planning and acquisition costs for
new generation ISAS system. The total projected cost for the planning, acquisition,
and maintenance of ISAS over the period of FY2003 through FY2007 is $71.4M.

The fiscal year growth in AAS costs are, in part, attributable to expenditures incurred
for technology expenditures for the system and the Auctions network which hosts the
application. AAS was implemented in FY1994 as a client server on-site application
that now has web-based components. The application, since its inception, has utilized
Sybase, Sun Enterprise, Solaris, and Netscape technologies.

The increases in fiscal year AAS costs are also attributable to the increased use of
contractor staff for technical support of the AAS and its technical environment. The
program was initially supported by one (1) FTE and twenty (20) contractors. The
Auctions network now hosts twenty (20) FTE and one hundred and twenty (120)
contractor accounts. WTB described that as new functionality is implemented (e.g.,
tighter integration with FCC systems, new auction methods, new software interfaces)
to comply with changing business requirements, increased contractor “staffing is
necessary to support the growing software and hardware platforms” and “to ensure
the accomplishment of the system’s missions.”

4. ULS was implemented as a single integrated licensing system and database used
   by all WTB services to process applications and licenses. New paradigms for
   spectrum policy, as outlined by the FCC’s Spectrum Policy Task Force, have
   resulted in WTB’s definition of ULS and AAS as constituting one program.
   Presently, the Auctions Program as defined by WTB, is primarily supported by
   two types of activities:
     Those necessary to auction appropriate spectrum; and
     Those necessary to license and manage the inventory of auctionable spectrum.

                                         21
Budget justifications for ULS indicate that the Auctions program funds 90% of the
application and appropriated monies fund 10% of the application. Life-to-date costs
through FY2003, as listed in the FY2003 Exhibit 300 which include an aggregate of
BOCCs, is $47.30M, consisting of $27.10M in full acquisition costs and $20.20M in
maintenance costs. ULS fiscal year actual and projected costs and fiscal year
percentage changes are noted in Figure 19:

                                 Total ULS FY        Percentage
                                     Costs          Increase from
                   Fiscal Year       ($M)         prior Fiscal Year
                     FY2000         $5.63M                ----
                     FY2001         $8.20M              45.65%
                     FY2002         $9.40M              14.63%
                   (projected)    (projected)         (projected)
                     FY2003        $10.90M              15.96%
                   (projected)    (projected)         (projected)
          Figure 19 – FY2000-FY2003 Total ULS Costs and Percentage Change

On September 1, 1999, WTB’s Bureau Chief issued a memorandum regarding
Auctions funding criteria to provide guidance as to which licensing costs are
auctions-related and which are not. The guidance recognizes that there are auctions
and non-auctions-related licensing activities processed by ULS. Non-auctions-related
licensing activities were noted as the following:

           Modification, transfer, assignment, and renewal of auctioned licenses
           (unless payment issues are involved)
           Licensing activity on exclusively non-auctioned spectrum

Auctions-related licensing activities were described as follows:

           Initial licensing of auctioned licenses
           Collection of auctions payments
           Clearing licensing case backlogs as it affects the rights of further auction
           winners

Information provided by the Commission during the audit, indicated that there are 92
types of license applications processed by ULS, also known as Radio Service Codes.
Transactions in ULS, which may or may not be for services defined as auctionable,
consist of filing new applications and modifications to existing licenses.
In FY2001, ULS application activity and transactions were processed for fourteen
(14) types of auctionable Radio Service Codes, while in FY2002 sixteen (16) types of
auctionable codes were processed. An evaluation of all new applications and
transactions processed by ULS in FY2001 and FY2002 indicated that the vast
majority processed by ULS during the timeframe was for non-auctionable licenses.
Total ULS transactions, including filings for new licenses, for FY2001 and FY2002
are summarized in Figure 20:



                                        22
                                                                          FY2001     FY2002
         Total Applications/Transactions Processed                        544,592     594,961
         Auctionable Applications/Transactions Processed                   22,253      30,630
         Percentage of Auctionable Applications/Transactions Processed     4.09%       5.15%
         Non-Auctionable Applications/Transactions Processed              522,339     564,331
         Percentage of Non-Auctionable Applications/Transactions          95.91%      94.85%
         Processed
                       Figure 20– FY2001-FY2002 ULS Licensing Transactions

    A further analysis indicated that the majority of new applications processed by ULS
    in FY2001 and FY2002 were for non-auctionable licenses. New applications
    processed by ULS for FY2001 and FY2002 are summarized in Figure 21:

                                                                          FY2001      FY2002
         Total New Licenses                                                86,534     101,982
         New Auctionable Licenses                                           3,570       7,122
         Percentage of New Auctionable Applications                        4.13%       6.98%
         New Non-Auctionable Applications                                  82,964      94,860
         Percentage of New Non-Auctionable Applications                 95.87%        93.02%
                  Figure 21 – FY2001-FY2002 ULS New Applications Transactions

    The analysis of data provided indicates that 4.13% and 6.98% of the new licenses
    processed in FY2001 and FY2002, respectively, were for auctionable licenses.
    However, the Auctions program funds 90% of ULS costs. This suggests that the
    majority of licensing costs attributed to the Auctions program for ULS are for non-
    auctions related licensing activities as defined by WTB’s guidance issued on
    September 1, 1999.

    As noted above, WTB guidance recognizes the use of the system for non-auctions
    related licensing activities. Existing WTB guidance further addresses the benefits of
    using Auctions money to fund activities unrelated to the Auctions program during the
    development of ULS. A memorandum issued on September 1, 1999 states that:
    “Because ULS integrates licensing of both auctioned and non-auctioned services into
    a single platform, the electronic filing capability of the system and many other
    features as well apply uniformly to both groups of services. As a result, it can be
    argued that the system should be fully auctions funded, because while they have been
    developed to support auctioned services, there is no added cost associated with
    extending these features to non-auctioned services2.”

    The FCC’s Spectrum Policy Task Force findings must also be considered. In its
    November 20, 2002 report, the Task Force recommended that spectrum management

2
    Federal Communications Commission Memorandum, dated September 1, 1999: Auctions Funding
    Criteria

                                                     23
   evolve from its ninety (90) year old "command-and-control" model to one rooted in
   modern day technologies and markets. Increasing demand for spectrum-based
   services and devices is straining longstanding, and outmoded, spectrum policies. The
   Task Force said that while the FCC recently has made some major strides in spectrum
   allocation and assignment in some bands, spectrum policy is not keeping pace with
   the relentless spectrum demands of the market. It found that new technological
   developments now permit the FCC to increasingly consider the use of time--in
   addition to frequency, power and space--as an added dimension permitting more
   dynamic allocation and assignment of spectrum usage rights. This would provide
   access to unused or underused spectrum through time-sharing of spectrum between
   multiple users and lead to more efficient use of the spectrum resource.

   The Task Force recommended that the FCC base its spectrum policy on a balance of
   three spectrum rights models--an exclusive-use approach, a commons approach and,
   to a more limited degree, a command-and-control approach. The Task Force advised
   altering the balance away from the predominant command-and-control model to
   permit access to unused or underused spectrum through time-sharing of spectrum
   between multiple users.

   The FCC’s Spectrum Policy Task Force findings have implications on the future
   funding policy for ULS. ULS was developed and funded under the command-and-
   control approach to spectrum management. The complexities of using three different
   spectrum rights models affect how licensing systems like ULS are funded. For
   example, the Task Force’s recommendations may permit auctions for electromagnetic
   spectrum of frequencies that cannot be auctioned under the command and control
   approach. These recent developments must be considered in the funding of a
   licensing system like ULS.

5. In FY1998, the Commission awarded a contract for the customization and
   implementation of RAMIS, which will serve as the next generation collection and
   revenue accounting platform for Auctions and the Federal Communications
   Commission. Prior to awarding the contract, the Managing Director determined that
   the Auctions program and its unique requirements drove the acquisition of the new
   revenue accounting system. The legacy Collections system was not able to handle the
   volume of receipts generated by the Auctions program, nor could it adequately feed
   into the financial system. The Commission required a system that was “auditable”,
   and one that could be used to interface with Mellon Bank to monitor the movement of
   funds. As a result of these factors, it was determined by the Commission that the
   project to develop and implement RAMIS would be 100% funded by Auctions as the
   need for a new system was directly related to the increase in revenue and collection of
   fees being processed by the Commission. RAMIS costs are shown in Figure 22
   (Note: These figures represent costs from an aggregate of BOCCs):

                                     Total RAMIS        Percentage
                                       FY Costs       Increase from
                      Fiscal Year        ($M)        prior Fiscal Year
                        FY2000          $1.05M              ----


                                           24
                         FY2001          $1.73M            64.76%
                         FY2002          $1.24M           -28.32%
                         FY2003          $2.00M            61.29%
                        (projected)    (projected)       (projected)
             Figure 22 – FY2000-FY2003 Total RAMIS Costs and Percentage Change

   The initial purchase order was for $2.98M, and by the end of FY2003 total outlays
   are expected to be between $7.5M and $8.0M. The original contract called for
   RAMIS to be fully implemented within two years of the contract award date, which
   occurred in late FY1998. Delays in project completion have been attributed to
   additional requirements for the Auctions module and requirements for the system’s
   interaction with ULS, as well as various customizations, enhancements and other
   project requirements encountered throughout the implementation process. The
   revised implementation date for RAMIS is projected for October 2003. Once
   deployed, Auctions program funds will be used to fund 100% of RAMIS’ operational
   and maintenance costs.

   Since implementation of the RAMIS loan module, the Commission has discovered
   that managing loans through the module is not effective, as the module was designed
   for the management of loans with similar terms. However, the majority of loans
   managed for the Auctions program require customization. When the contracted
   financial institution assumes full servicing of loans at the end of FY2003, the
   Commission plans to stop using the RAMIS loan module for servicing loans.

6. During FY2000 and FY2001, the funding of the financial statement audit was a 93%
   Auctions, 7% appropriated funds split. In FY2002 the funding split was revised to
   73% Auctions and 27% appropriated funds. Figure 23 displays the costs of the
   financial statement audit by fiscal year:




           Fiscal     Total Cost     Split Funding %       Auctions Cost   Appropriated
           Year                    Auctions/Appropriated                      Cost
           FY2000     $494,653             93/7              $460,027        $34,626
           FY2001     $703,881             93/7              $654,609        $49,272
           FY2002      $873,858           73/27             $637,916         $235,942
             Figure 23– FY2000-FY2002 Financial Statement Audit Costs and Funding

   The Office of Inspector General, considering the focus of the most recent financial
   statement audit effort for FY2002, estimated the breakdown of financial statement
   audit work as follows:

       •    40% of audit work focused on Auctions-related financial activity of the
            Commission;
       •    20% of audit work focused on non-Auctions related financial activity of the
            Commission;

                                             25
          •   39% of audit work focused on financial activities of the Universal Service
              Fund (USF) which is administered by the Universal Services Administration
              Corporation (USAC); and
          •   1% of audit work focused on North American Numbering Plan (NANP)
              financial activity.

   The estimate provides that during the FY2002 financial statement audit, 60% of the
   work was believed to be for non-Auctions related work. Additional costs incurred for
   the financial statement audit is for the preparation of financial data and statements. A
   summary of the expenditures identified from Auctions expenditure reports as paid to
   a public accounting firm between FY1999 and FY2001 for the preparation of
   financial data are listed in Figure 24:

                                             Total Auctions Expenditure
                            Fiscal Year                 ($M)
                             FY1999                     $.61M

                             FY2000                     $1.40M
                           FY2001                  $1.00M
     Figure 24 – FY1999-FY2001 Public Accounting Firm Costs Funded by Auctions Program

7. The cost for centralized non-IT service contracts charged to the Auctions program has
   significantly increased since FY1999. In FY1999, $68K was charged to BOCC 2500
   for non-IT shared services. In FY2002 the amount incurred was $7.5M and for
   FY2003 is projected to be $5.4M. Figure 25 is a table that identifies the overhead
   rate, amount of non-IT centralized services charged to Auctions, the percentage of
   growth from the prior fiscal year, the types of services included in each fiscal year,
   and a brief explanation of the rise in costs.

 Fiscal       Auctions     Auctions       Percentage             Includes:         Increase due to:
 Year         Overhead   Cost for 2500     Increase
                Rate      Centralized     from Prior
                           Services       Fiscal Year

  1999           8%        $68,459           -----          Guard Services               -------

                                                                                  Increase in Contract
  2000          8.5%       $115,000         67.98%          Guard Services
                                                                                         Price
                                                         Guard Services, Copier   Increase in Contract
  2001          11%        $480,002        317.39%
                                                             Maintenance                 Price




                                                26
                                                    Guard Services, Copier
                                                          Maintenance,
                                                       Inventory Support         Addition of
                                                        Contract, Leads       Inventory Support
                                                       Contract, Security     Contract, Security
   2002         12%      $7,456,683     1453.47%
                                                         Enhancements,          Enhancements,
                                                           Gettysburg            Renovation
                                                     Renovation, Security          Projects
                                                    Investigations, Portals I
                                                          Renovation
                                                    Guard Services, Shared
                                                      Services Contracts,
   2003         14%
                         $5,418,494      -27.33%      Space Renovation,              ----
(projected) (projected)
                                                    Security Investigations,
                                                      Copier Maintenance
   Figure 25 – FY1999 – FY2003 Auctions Program Centralized Contractor – Other Services Costs


Personnel Compensation and Personnel Benefits (BOCC 1100 & 1200)

Another area of significant growth in Auctions program costs has incurred in the budget
object class code of Personnel Compensation & Benefits. From FY1999 through
FY2002, personnel compensation costs and benefits costs have increased on average by
28.38% and 35.02%, respectively. In FY1999 annual personnel compensation costs were
$11.29M. In FY2002, Auctions program personnel compensation costs were $23.23M,
an increase of $11.94M. Similarly, annual personnel benefits in FY1999 were $1.87M
and $4.52M in FY2002, an increase of $2.65M. Figures 26 through 29 depict the growth
in the budget object class codes for Personnel Compensation and Personnel Benefits by
dollar amount and percentage of fiscal year growth.



                                                  Personnel Compensation

                                       $30.0

                                       $25.0
                  Dollars (Millions)




                                       $20.0

                                       $15.0

                                       $10.0
                                        $5.0

                                        $0.0
                                           FY99   FY00      FY01       Obligations   Projected
                                                                         FY02          FY03
                                                         Fiscal Year


          Figure 26 – FY1999-FY2003 Auctions Program Personnel Compensation Costs




                                                           27
                                        FY1999    FY2000    FY2001         FY2002              FY2003
                                                                         (Obligations)       (Projected)
           % Change
             from                        36.31%   49.89%    28.21%           7.05%             18.30%
          Previous FY
                Figure 27 - Fiscal Year Change in Personnel Compensation Cost



                                                   Personnel Benefits

                                      $6.0

                                      $5.0

                                      $4.0
                 Dollars (Millions)




                                      $3.0

                                      $2.0

                                      $1.0

                                      $0.0
                                         FY99     FY00        FY01       Obligations   Projected
                                                                           FY02          FY03
                                                           Fiscal Year


            Figure 28 – FY1999-FY2003 Auctions Program Personnel Benefits Costs


                                        FY1999    FY2000    FY2001         FY2002              FY2003
                                                                         (Obligations)       (Projected)
           % Change
             from                        58.59%   47.82%    43.75%           13.50%            19.83%
          Previous FY
        Figure 29 – FY Percentage Change in Auctions Program Personnel Benefits Costs



Factors Contributing to Increased Personnel Compensation and Benefits Costs

1. The number of FTEs reported as supporting the Auctions program has risen. The
   Commission has attributed this increase to more accurate reporting of time by
   personnel conducting Auctions-related activities. Additionally, as more services
   become auctionable, an increasing number of employees are required to dedicate time
   in support of the Auctions program. Appendix 3 provides a history of the services
   that have become auctionable since the program’s inception.

   The number of Auctions FTEs (including overhead distribution for leave) rose
   26.76% between FY2000 and FY2002, from 213 to 270 FTEs. Over this same time
   period, the Commission FTEs were relatively stable and only increased 0.98%, from
   1,933 to 1,952 FTEs. The resultant effect of the increase in Auctions FTEs is a rise in
   personnel compensation and benefits expenditures. The average percentage increase



                                                            28
   of personnel costs from FY1999 to FY2003 (projected) is 26.64% as summarized in
   Figure 30.

                                        Auctions Personnel
                                   Compensation and Benefits        Percentage
                   Fiscal Year                 ($M)                  Increase
                     FY1999                  $13.17M                     --
                     FY2000                  $19.70M                  49.58%
                     FY2001                  $25.69M                  30.41%
                     FY2002                  $27.75M                   8.02%
                     FY2003                  $32.90M                  18.56%
                   (projected)              (projected)             (projected)
   Figure 30 – FY199-FY2003 Personnel Compensation & Benefits Costs and Percentage Increase


2. Additionally, the rise in compensation and benefits costs have resulted form
   inflationary increases and salary increases for personnel.


Equipment (BOCC 3100)

In FY1999, Equipment costs accounted for $2.60M of the Auctions program expenditure,
a small decrease from the previous fiscal year. The Equipment BOCC captures costs for
hardware, software, office furniture, and telecommunications equipment. This amount
has increased each fiscal year through FY2002 to $10.84M, and was projected to
decrease to $8.24M in FY2003. Figures 31 and 32 illustrate Auctions program
equipment costs.

                                                         Equipment

                                       $12.0

                                       $10.0
                  Dollars (Millions)




                                        $8.0

                                        $6.0

                                        $4.0

                                        $2.0

                                        $0.0
                                           FY99   FY00        FY01       Obligations   Projected
                                                                           FY02          FY03
                                                           Fiscal Year



                Figure 31 – FY1999 – FY2003 Auction Program Equipment Costs




                                                            29
                          FY1999    FY2000    FY2001     FY2002          FY2003
                                                       (Obligations)   (Projected)
            % Change
              from        -43.21%   126.05%   30.78%     41.25%         -23.93%
           Previous FY

            Figure 32 - FY Percentage Change in Auctions Program Equipment Costs



Factors Contributing to Increased Equipment Costs

1. During the period under review, hardware was acquired to upgrade and replace existing
   servers, purchase new servers, and enhance the Auctions network. The Auctions
   network environment has undergone significant modification since the original
   implementation of the Auctions program, growing in both size and complexity. At its
   implementation in FY1994, the entire processing environment for the Auctions
   program consisted of two (2) file and print servers, four (4) database servers, forty (40)
   personal computers, and various printers. Today the environment consists of seventy-
   three (73) network devices (including routers, switches, dial-in boxes, and load
   balancers), 241 servers, and multiple network and Internet connections. Appendix 1
   provides a more detailed description of the Auctions technical environment.

   As Auctions funds are being used wholly or partially fund implementation,
   enhancement, and upgrading, and maintenance of information systems, associated
   hardware and software costs are also being incurred. These systems include the
   following:

           AAS,
           RAMIS,
           CORES,
           ULS,
           EDOCS,
           CDBS,
           Collections,
           COSER,
           FFS, and
           LDRS.

   Hardware expenditures were also incurred in support of the Enforcement Bureau’s
   technical analysis and measurements in auctionable spectrum bands.

   WTB has purchased hardware to implement two (2) Sun Storage Area Networks
   (SAN) for the primary Auctions environment (DC SAN) and the Gettysburg facility
   (Gettysburg SAN), which is the fail-over site. In FY2002 WTB spent $.76M on the
   DC SAN. The final projected cost for the Gettysburg SAN is $.63M. In FY2003,
   WTB reported in the Auctions budget request that it expects to spend an additional
   $1.00M on its SANs, for a total of 2.39M.


                                              30
During the audit it was identified that ITC is also implementing a XIOTech SAN.
Between late FY2001 through the second quarter of FY2003, ITC has spent $2.32M,
including $.35M in software-related purchases, on their SAN. As noted by ITC, costs
for the ITC SAN would be higher given the need for more disk farms and automated
backup capabilities to handle the more than 2000 member FCC staff. Auctions
program funds were used to fund $.14M of the ITC SAN, regulatory fees paid for
$1.26M, and appropriated funds were used for the remaining costs of $.93M. For the
remainder of FY2003 and in FY2004, $.50M of additional outlays is projected. The
additional outlay is for a SAN in Gettysburg as part of the agency’s Continuity of
Operations Plan (COOP) solution. The total amount budgeted and/or spent on SANs
by WTB and ITC was $5.21M.

The individual SAN projects initiated by WTB and ITC have been described as
separate and unrelated projects, which were driven by differing goals and
requirements. WTB noted that separate purchases by ITC and Auctions for IT-related
items have been historically linked to appropriated budget constraints faced by the
FCC, which do not affect the differing program goals of the Auctions program. ITC
reported that it was driven to enter into agreement for the ITC SAN in late FY2001
partially out of concerns that FY2002 funds may not be available to purchase “big
ticket” items the first half of the year due to anticipated continuing resolutions. ITC
SAN costs were first incurred in late FY2001, while WTB SAN costs were first
incurred in FY2002.

While both ITC and WTB use a mixed Sun/Windows environment, ITC alone utilizes
Novell technology as well. Mandatory in ITC’s requirements analysis for its SAN,
issued in late FY2001, was operational compatibility with the Novell NetWare
operating system and the data stored in NetWare environments. At the time of
implementation, approximately half of the ITC SAN was targeted for Netware
volume data. Based on this requirement, ITC selected a XIOTech SAN solution.
ITC reported that the XIOTech SAN was selected because it was the only product
that supported all of the technical requirements of the Commission’s IT architecture
and because it provided the greatest potential cost savings by taking advantage of
enterprise architecture economies-of-scale. WTB cited its primary requirements for a
SAN solution as one that could support Internet auctions, an upgrade to Sybase 12.5,
parallel databases for auctions, and new architecture and backend databases for ULS.
WTB selected a Sun SAN solution.

During fieldwork, we noted that the original mandatory requirements of the ITC
SAN’s compatibility with Novell NetWare have been minimized by a decision to
change the operating system used by ITC. In FY2002, ITC initiated a migration
project from Novell to a Microsoft Windows NT/2000 operating system. According
to ITC, the FY2002 decision to migrate to Microsoft Windows had not been made at
the time that the SAN purchase was determined in late FY2001. It should also be
noted that ITC and Auctions require a SAN solution that can support their individual
initiatives to upgrade to Sybase version 12.5.




                                        31
   Outside of the original ITC requirement for compatibility with Novell NetWare, the
   requirements cited by both groups do not appear to have differed to the extent that it
   would have precluded a shared technology. In comments on the preliminary Draft
   Report, ITC noted, “The ITC SAN has the potential capability to support the entire
   Commission infrastructure for data storage and backup up capabilities, while the
   Auctions SAN supports a very unique program/mission but does not need to provide
   support for an enterprise.” In comments regarding the change from Novell to
   Microsoft, ITC also stated, “We could not have foreseen the rapid decision to switch
   to the Windows environment even though it occurred fairly soon after the SAN
   decision. Also, this had a fairly minimal overall cost impact and the same technology
   could support Auctions requirements.”

   The two groups budgeted and/or spent $5.21M on four SAN computer systems. By
   purchasing one SAN to support FCC headquarters operations, the Commission could
   possibly have reduced these expenditures by approximately $1.76M. Also, before
   ITC spends an additional $.50M for a SAN in Gettysburg, both ITC and Auctions
   should formally study and report upon the feasibility and cost effectiveness of using
   the present Gettysburg SAN for contingency planning. Outside of the original ITC
   requirement for compatibility with Novell NetWare, the requirements cited by both
   groups do not appear to have differed to the extent that it would have precluded a
   shared technology. This may be practical since the Commission is eliminating the
   Novell operating system, the major stumbling block to sharing the SANs. The
   potential reductions could total $2,260,000.

2. In addition to hardware purchases, the purchase of software packages, software
   upgrades, and software licenses has contributed to the increase in equipment costs.
   Examples of such procurements include the purchase of Oracle licenses, the Remedy
   software package, ColdFusion software, Sybase upgrades, and upgrades to the
   Geographic Information System software.


Rent, Communications, and Utilities (BOCC 2300)
Since FY1999, the Auctions program costs related to Rent, Communications, and
Utilities have significantly increased. In FY1999 rent, communications, and utilities
costs were $2.47M. By FY2003, the projected annual cost had risen to $8.99M, an
increase of $6.52M. Figures 33 and 34 illustrate the growth in Rent, Communications,
and Utilities.




                                           32
                                                    Rent, Communications, Utilities

                                         $10.0
                                          $9.0
                                          $8.0




                    Dollars (Millions)
                                          $7.0
                                          $6.0
                                          $5.0
                                          $4.0
                                          $3.0
                                          $2.0
                                          $1.0
                                          $0.0
                                             FY99         FY00           FY01     Obligations   Projected
                                                                                    FY02          FY03
                                                                   Fiscal Year


     Figure 33 – FY1999 – FY2003 Auctions Program Rent, Communications, & Utilities Costs


                                             FY1999      FY2000      FY2001          FY2002            FY2003
                                                                                   (Obligations)     (Projected)
            % Change
              from                          -20.23%      54.91%      38.08%           26.45%           34.53%
           Previous FY
  Figure 34 - FY Percentage Change in Auctions Program Rent, Communications, & Utilities Costs



Factors Contributing to the Increase in Rent, Communications, and Utilities

1. Auctions program costs for centralized services related to rent, communications, and
   utilities have significantly increased since FY1999. In FY1999, $1.3M in shared
   services costs was charged to BOCC 2300. By FY2002 the amount had risen to
   $5.8M and is projected to be $7.7M in FY2003. Figure 35 is a table that identifies the
   overhead rate, amount of centralized services classified as BOCC 2300, the
   percentage of growth from the prior fiscal year, the types of services included in each
   fiscal year, and a brief explanation of the rise in costs.

                                           Auctions          Percentage
            Auctions                      Cost for 2300       Increase
 Fiscal     Overhead                      Centralized        from Prior
 Year         Rate                          Services         Fiscal Year               Includes:            Increase due to:
                                                                                 Portals II Rent, Non-
  1999         8%                           $1,346,935            ----           GSA Rent, Metered                 ------
                                                                                    Mail, Utilities
                                                                                 Portals II Rent, Non-
  2000        8.5%                          $2,314,968           71.87%          GSA Rent, Metered           Increase in Rent
                                                                                    Mail, Utilities
                                                                                 Portals II Rent, Non-
                                                                                                             Increase in Rent,
                                                                                 GSA Rent, Metered
  2001        11%                           $3,433,973           48.34%                                     Addition of Copier
                                                                                 Mail, Utilities, Copier
                                                                                                              Rental Expense
                                                                                        Rental


                                                                    33
                                                     Portals II Rent, Portals
                                                                               Increase in Rent,
                                                    I Rent, Non-GSA Rent,
                                                                              Addition of Portals
                                                    Metered Mail, Utilities,
   2002        12%       $5,779,730       68.31%                              I Rent, Addition of
                                                     Copier Rental, Direct
                                                                               Direct Support of
                                                           Support of
                                                                                 Bureau/Office
                                                         Bureau/Office
                                                     Portals II Rent, Portals
                                                    I Rent, Non-GSA Rent,
                                                                               Increase in Rent,
   2003        14%                                  Metered Mail, Utilities,
                         $7,698,723       33.20%                                Utilities, Copier
(projected) (projected)                              Copier Rental, Direct
                                                                                     Rental
                                                           Support of
                                                         Bureau/Office
  Figure 35 - FY1999 – FY2003 Auctions Program Centralized Rent, Communications, and Utilities
                                             Costs

Data gathered during the audit indicates that there are inconsistencies in the cost
accounting methods used to calculate rental/leasing costs being charged against the
Auctions program. The methods of calculation vary by facility and are outlined below:

       Portals II Headquarters and National Field Offices: Costs are allocated to the
       Auctions program through the use of the Auctions program overhead rate
       indicated in Figure 35.
       Portals I Facility: Rental/leasing costs for the Portals I facility are charged to
       Auctions as a direct cost.
       Gettysburg, PA Consumer Center: The Auctions program share of rental/leasing
       costs for the Gettysburg, PA facility is calculated as the percentage of shared and
       non-shared space occupied by Auctions personnel.

In addition to the inclusion of additional centralized services in Auctions program costs,
direct costs for the Portals I and Gettysburg facilities have increased over the period. For
instance, vendor expenditure data indicates that Gettysburg rental costs rose from $.38M
in FY2001 to $1.79M in FY2002 (see Appendix 2). Overall, increases in direct costs for
the Portals I and Gettysburg sites have resulted from annual rent increases by property
management, as well as the cost of space renovations. In FY2002, the Commission
entered into a leasing agreement for a floor of the Portals I building (located next to the
FCC headquarters at the Portals II building), which after renovation, is to be occupied by
FCC personnel/contractors performing 100% Auctions-related work. Lastly, as a result
of physical security weaknesses identified at the Gettysburg facility, the security of the
facility is being upgraded and charged to the Auctions program.


Other Non-Material BOCCs

Costs in the following BOCC categories were considered to be immaterial and not
attributable to the significant rise in Auctions program costs:

       Travel & Transportation of Persons (BOCC 2100)
       Transportation of Things (BOCC 2200)
       Printing (BOCC 2400)


                                               34
      Supplies & Materials (BOCC 2600)

The following figure summarizes the costs for each BOCC by fiscal year:

                                                              FY2002          FY2003
                    FY1999        FY2000         FY2001
                                                            (Obligations)   (Projected)
  Travel and
  Transportation
                    $110,103     $209,324        $287,228     $187,851       $375,150
  of Persons
  (BOCC 2100)
  Transportation
  of Things          $1,173       $2,896          $3,670      $11,576        $138,700
  (BOCC 2200)
  Printing
                    $275,792     $337,477        $192,926     $100,689       $180,326
  (BOCC 2400)
  Supplies &
  Materials         $219,233     $211,924        $225,553     $426,086       $460,590
  (BOCC 2600)
                   Figure 36 – FY1999-FY2003 Costs for Non-material BOCCs




                                            35
OBSERVATIONS FOR INCREASED EFFECTIVENESS
The audit observed several areas where the management effectiveness for Auctions
program costs could be improved. These are:

       Reevaluate Auctions Funding Justifications for Major FCC Systems: A
       number of FCC computer applications have not had their initial Auctions budget
       funding percentages reviewed, despite changing conditions. For example, the
       Universal Licensing System (ULS) is funded with 90% auctions funds. This
       guidance does not consider the percentage of auctionable vs. non-auctionable
       applications/transactions processed by ULS. Nor does the percentage reflect
       current FCC spectrum usage policy, as stated in the Spectrum Policy Task Force
       report dated November 15, 2002. Similarly, the Revenue Accounting &
       Management Information System (RAMIS) was initially funded with 100%
       auctions funds. Its auction funding percentage has not been reevaluated, even
       though the loan module, used to justify 100% funding, is not being utilized to
       manage the spectrum auction loan portfolio.

       Use Consistent Auctions Cost Accounting Methods: FCC management needs
       to determine the most appropriate cost accounting method for calculating
       Auctions program rental/leasing costs across FCC facilities. Once determined,
       the most appropriate method should be consistently used on rental/costs. This is
       not occurring. For example, shared security upgrades to the FCC’s Gettysburg
       building were charged 100% to Auctions. The FCC auctions overhead rate of
       14% for shared services was not used. This increased rent expenditures for
       Gettysburg that were charged to Auctions from $38,596 in FY 2001 to $1,787,713
       in FY 2002.

       Establish an Effective Capital Investment Program: The FCC does not have
       an effective capital investment program. This violates federal laws and
       regulations such as the Clinger-Cohen Act and OMB Circular A-130. Also, an
       ineffective capital investment program creates an environment where duplicate

       For example, WTB and ITC both independently budgeted for and purchased
       storage area networks (SANs) for the FCC. The two groups budgeted and/or
       spent $4,710,000 on four SAN computer systems. By purchasing one SAN to
       support FCC headquarters operations, the Commission could possibly have
       reduced these expenditures by approximately $1,760,000. Also, before ITC
       spends an additional $500,000 on a SAN in Gettysburg, both ITC and WTB
       should jointly study and formally report upon the feasibility and cost effectiveness
       of using WTB’s existing Gettysburg SAN for contingency planning. This may be
       practical since the Commission is eliminating the Novell operating system, a
       major stumbling block to sharing the SANs. The potential unrealized cost savings
       could total $2,360,000.

       Outside of the original ITC requirement for compatibility with Novell NetWare,
       the requirements cited by WTB and ITC do not appear to have differed enough to

                                           36
preclude a shared technology. ITC noted in preliminary comments to the Draft
Report that it considers the ITC SAN to have the potential capability to support
the entire Commission infrastructure. An effective capital investment program
could have identified potential duplications. This could have resulted in the use
of a shared technology with a corresponding significant reduction in expenditures.

Therefore, to better manage Commission funds, we recommend that the FCC
develop an effective capital investment program. This finding is discussed in
detail on page 46.




                                    37
                              The Role of IT Capital Planning in the Federal Government
     Overview of
     IT Capital               Federal government IT requests in the FY2004 budget
      Planning                request totaled nearly $60 billion. With significant portions
                              of agencies’ budgets being spent on IT-related purchases,
federal agencies are being required to demonstrate effective management of IT resources.

Recent legislative reforms, including revisions to the Paperwork Reduction Act
(PRA), the Clinger-Cohen Act of 1996, the Government Performance and Results Act
(GPRA), and the Chief Financial Officers (CFO) Act, have introduced requirements
highlighting the need for federal agencies to improve their management processes,
including how they select and manage IT resources. According to the legislation, agency
decision-making processes should be documented formally, institutionalized throughout
the organization, and applied uniformly to all IT-decisions. Specifically, the Clinger-
Cohen Act of 1996 requires federal agencies to place more emphasis on the results
obtained through investing in IT, while concurrently streamlining the IT acquisition
process.

Additionally, OMB Circular A-130 (Management of Federal Information Resources) and
Circular A-11 (Fixed Assets) requires that agencies establish and maintain IT capital
planning and investment control processes that link mission needs, information, and IT
projects efficiently and effectively. The processes should address all stages of IT capital
programming—including planning, budgeting, procurement, management, and
assessment—and contain three distinct components:

       Selecting investments for the IT portfolio;
       Controlling and managing the investments; and
       Evaluating the investments based on planned performance versus actual
       accomplishments.

GAO published draft guidance in May 2000 for assessing the maturity of an entity’s IT
investment management process. The guidance suggests a framework that can help an
agency improve its IT capital planning and investment control. Specifically, GAO
identified five stages of process maturity, each of which builds upon lower stages and
enhances an organization’s ability to manage IT investments.

With the release of the FY 2004 request, there has been an increased emphasis on
eliminating overlap among systems and ensuring that agencies have a clear-cut method of
measuring program performance. Additionally, emphasis is being placed on agencies’
justification of IT investments through standardized processes for developing business
cases. According to OMB, more than 700 major projects, representing nearly $21 billion,
were on OMB’s at-risk list for 2003, because they have not adequately addressed
information security or have not provided a thorough business case to indicate “sufficient




                                            38
potential for success.3” At the Enterprise Architecture in Government Conference held
in 2003, OMB noted that many agencies are still struggling to ensure IT investments are
considered as a component of their overall capital planning and investment control
process; and as a result, OMB will likely emphasize the importance of capital planning in
the next update to OMB Circular A-11.

Investments in IT are critical to providing better services and improving the effectiveness
and cost-efficiency of business processes. The use of IT in federal agencies has a direct
affect on the agencies’ abilities to increase mission performance, improve management
decision-making and oversight, and obtain operational efficiencies. Due to the key role
of IT, it is important to develop and utilize formalized decision-making processes to
ensure that funds are invested and managed properly.


IT Capital Investment Practices of the FCC

In May of 2000, GAO published the Information Technology Investment: A Framework
for Assessing and Improving Process Maturity (GAO AIMD 10.1.23) exposure draft.
Based largely on the Clinger-Cohen Act of 1996, the publication provides guidance for
assessing an entity’s maturity in the IT investment management (ITIM) process.
Specifically, GAO identified five stages of process maturity, each of which builds upon
lower stages and enhances an organization’s ability to manage IT investments. The ITIM
maturity model is outlined in Figure 37.



                    ITIM Stages of Maturity and Critical Maturation Steps




                  Figure 37 – ITIM Stages of Maturity and Critical Maturation Steps



Our audit of the Commission’s current IT capital investment practices indicates that the
Commission is transitioning from Stage 1 to Stage 2 of the ITIM, with components of

3
    Government Executive Magazine, “White House Demands Results from IT Spending”, February 3, 2003

                                                  39
Stage 2 in place and additional Stage 2 components planned for implementation. A Stage
1 entity is characterized by little awareness of investment management techniques and IT
management processes that are ad hoc, project-centric, and have widely variable
outcomes. Stage 2 entities are those that are building the foundations to investment
management. Entities at this stage demonstrate increased knowledge of IT investment
practice, work to develop mature control processes and maintain basic selection
processes. Delays and project overruns experienced by the current RAMIS
implementation and FY2000 implementation of the Universal Licensing System can be
attributed to the maturity of the Commission’s investment management techniques at the
time that these projects were planned for and initiated.

As indicated in Figure 1, Stage 2 is where an entity has demonstrated that it is building a
foundation to managing its investments. It is characterized by development of mature
selection processes and a movement from project-based to portfolio management of IT
investments. During this stage, an entity begins to put into place repeatable investment
control techniques and key foundational investment management capabilities.

Through interviews of staff OMD and the Auctions Operations Branch, we were able to
develop a profile of the Commission’s current process for managing its IT investments,
inclusive of those for the Auctions program. Information gathered during the audit
indicates that the Auctions program is to be managed in accordance with the overall IT
practices of the FCC. As such, the audit team reviewed the current and planned
processes and policies of the FCC as a whole. The combination of the following was
defined as the Commission’s current IT capital planning documentation:

   The IT Strategic Plan (published and implemented in July of 2002) – as it pertains to
   IT capital planning, contains the FCC’s Enterprise Architecture Technical Reference
   Model (TRM). The IT Strategic Plan also provides a high-level framework for the
   Commission’s IT capital investment process which is under development.

   Exhibit 300: Capital Asset Plan and Business Case - representative of capital asset
   plans and business cases for IT capital investments. The Commission began
   submitting Exhibit 300s in FY2000. For the FY2004 appropriated budget, plans for
   the following systems were submitted:

   •   AAS
   •   RAMIS
   •   Consumer Information Management System (CIMS) (proposed system)
   •   Core Accounting System (proposed changes to the Federal Financial System)
   •   Integrated Licensing System (proposed system to consolidate ULS, CORES, and
       other FCC licensing systems)

   The major information systems funded partially or wholly through the Auctions
   budget that were documented on the FY2003 Exhibit 300 were AAS, RAMIS, ULS,
   and CORES.




                                            40
   Exhibit 53: Information Technology Investment Portfolio - representative of the
   Commission’s investment portfolio where project costs are compiled and reported.

   Systems Development Life Cycle (SDLC) Methodology - representative of requirement
   for evaluations of major projects through cost/benefit analysis, project status reports,
   acceptance test reports, and the post-implementation review reports. The threshold
   for projects/systems subject to the Commission’s SDLC is those that incur expenses
   of greater than $100,000 per year, or greater than $300,000 over the life of the system.

Additionally, the Commission has a documented Draft of the FCC Information
Technology Capital Planning and Investment Control Process. This document, once
implemented will provide additional structure and guidance to the IT capital investment
practices described in the IT Strategic Plan. The draft document provides for the
implementation of two committees for oversight of IT capital planning – an Executive
Review Committee and a Steering Committee. The planned members of the Executive
Review Committee are the Chief Information Officer (CIO), the Chief Financial Officer,
the Chief Procurement Executive, and other executive officials as designated by the
Managing Director. The Managing Director, or his designee, will chair and administer
the committee. The Steering Committee is to provide technical support and guidance to
the Executive Review Committee. The planned members of the Steering Committee are
the Chief of the ITC Network Development Group, Chief of the ITC Planning and
Support Group, Bureau/Office representatives, and other officials designated by the CIO.
The CIO will chair and administer this committee.

Current Procedures for Procurement of IT
ITC and Auctions initiate separate purchase orders for similar IT services, hardware, and
maintenance contracts. However, one central procurement/contracting group has been
tasked with managing the execution of contracts. The initiation of separate purchase
orders has been attributed to the difference in the timing of budget receipt of the Auctions
program and the Commission appropriated funds. Auctions funds are received and made
available at the beginning of the fiscal year. However, appropriated funds may not be
obtained immediately due to Continuing Resolutions (CRs). During CRs, Commission
funds may not be available to procure services/hardware at the same time that Auctions
places its orders. Additionally, Auctions purchases may be time sensitive and may not
have the flexibility to wait for ITC to obtain their funding.

In interviews of FCC personnel, it was noted that the placement of separate purchase
orders (POs) by Auctions and ITC should not preclude the FCC from obtaining volume
discounts on similar services, hardware and maintenance contracts. The extent to which
this is followed was not tested during the audit. From the information gathered it appears
that procurement personnel are expected to obtain economies of scale by either (1)
negotiating volume discounts with vendors in anticipation of the issuance of separate POs
for similar items or by (2) directly negotiating with vendors already used by one group to
procure similar needs for the other group.

Under past practices, the ITC Customer Service Representative (CSR) was responsible
for reviewing all Auctions IT purchases with ITC personnel. In May 2002, the Managing


                                            41
Director formally established several Overhead Central Account Managers (CAMs) to
oversee and coordinate Auctions-related initiatives. The ITC’s Chief, Planning and
Support Group serves in this capacity and is charged with managing the procurement of
major hardware, software, and information services for the FCC. Also, in May 2002, an
informal group, consisting of personnel from OMD, ITC, CAMs, and the CSR was
formed to review IT purchases of the FCC. This group commonly referred to as the
“Gang of Ten”, meets informally to facilitate the identification of services, hardware, and
maintenance needs of Auctions and ITC that could benefit from economies of scale.
When Auctions presents a technology purchase request, the “Gang of Ten” discusses the
request to determine if any other parties (i.e., ITC) plan to procure similar services or
hardware. If so, an attempt is to be made to combine the purchases, or at a minimum
notify the vendor of the future purchase so that both groups obtain economies of scale.
The extent to which the “Gang of Ten” has facilitated any economies of scale was not
tested during the audit.




                                            42
RESULTS OF AUDIT OF THE COMMISSION’S INFORMATION
TECHNOLOGY (IT) CAPITAL INVESTMENT PRACTICES
This section of the report identifies positive observations and weaknesses in the
Commission’s IT capital investment practices identified during audit fieldwork.


       Positive             Our audit of the Commission’s IT capital investment
  Observations of the       practices, yielded several positive observations, as well as
                            weaknesses in the agency’s current practices used to manage
   FCC’s IT Capital
                            IT investments. Positive observations identified during the
 Investment Practices       course of the audit are noted below:

   Beginning with the FY2003 Auctions budget request, the FCC began managing the
   Auctions cost budget development process in similar fashion to the overall
   appropriated budget process for the agency. Additionally, the Commission has
   demonstrated increased fiscal responsibility through centralized management of
   shared services by Administrative Operations (AO) of OMD and regular tracking of
   Auctions expenditures by each Bureau and Office.

   The Commission is in the process of implementing a formalized capital investment
   process as documented in the Draft FCC Information Technology Capital Planning
   and Investment Control Process document. A finalized plan is expected to be
   available in FY2003.

   The FCC finalized its Information Technology Strategic Plan in July of 2002. The
   plan provides a high-level framework for the Commission’s IT capital investment
   process and meets the requirements of OMB A-130 for an IT strategic plan.
   Additionally, using technical aspects of the Federal Enterprise Architecture (EA)
   Framework developed by the Chief Information Officer’s (CIO) Council, components
   of the IT Strategic Plan were developed to represent the Commission’s EA. The EA
   sections of the IT Strategic Plan present a Technical Reference Model where the
   FCC’s current and target IT architecture is described.

   In May of 2002, the FCC implemented an informal working group comprised of
   personnel from OMD and WTB, including Central Account Managers of the FCC.
   The group, often referred to as the “Gang of Ten”, is to meet on a regular basis to
   discuss Auctions expenditures and proposed IT investments. The group was
   implemented with the purpose of achieving greater fiscal responsibility for the
   Auctions program fund by actively monitoring expenditures.


   Findings Resulting from          The Commission has taken positive steps towards
    the Audit of IT Capital         improving its management of IT capital investments.
     Investment Practices           However, the Commission as a whole has not


                                            43
consistently implemented a formal, documented IT capital planning process and
procedures with defined criteria for the selection, control, and evaluation of investments.
Specific weaknesses in the FCC’s IT capital investment practices are noted below:

   The FCC Information Technology Capital Planning and Investment Control Process
   is in draft format and does not to meet the requirements of the Clinger Cohen Act of
   1996. Specifically, the document does not:

       •   include minimum criteria to be applied in considering whether to undertake a
           particular investment in information systems;
       •   provide for identifying information systems investments that would result in
           shared benefits or costs for other Federal agencies or State or local
           governments; or
       •   provide for identifying for a proposed investment quantifiable measurements
           for determining the net benefits and risks of the investment.

   Additionally, the document does not meet all of the requirements of OMB Circular A-
   130 (see Appendix 4 of this report which outlines the areas of non-compliance with
   OMB Circular A-130). The draft document is expected to be through its final
   approval by the end of the fourth quarter of FY2003.

   A formal Executive/Investment Review Committee has not been established for the
   review and selection of IT capital investments. Establishment of a formal
   Executive/Investment Review Committee is planned for the fourth quarter of
   FY2003.

   The IT Strategic Plan, representative of the Commission’s EA, does not document the
   relationship of business processes and technology. Also, the inventory of information
   resources in the IT Strategic Plan does not accurately reflect the current EA.

   Costs for development, modernization, and enhancement, as well steady state costs
   for each major project of the FCC are not attributed to the funding source in the
   Exhibit 53s. While the text of OMB A-11 may not specifically ask for this breakout,
   as noted by OMD, the Exhibit 53 form provides input fields for this information to be
   included.

   Post-implementation reviews (PIR) are not consistently documented in a timely
   manner. The Commission’s SDLC methodology requires that PIRs be developed and
   published within six (6) months after system implementation. However, the PIR for
   CORES, which was deployed in June of 2000, was not published until November of
   2002.

As discussed in OMB Circular A-130, an agency’s capital planning and investment
control process must have three (3) components: selection, control, and evaluation. The
process must be iterative, with inputs coming from all of the agency plans and the outputs
feeding into the budget and investment control processes with a goal of linking resources
to results. An agency's capital planning and investment control process should build

                                            44
from the agency's current EA and its transition from current architecture to target
architecture. Additionally, capital planning and investment control processes of an
agency must be documented, and provided to OMB consistent with the budget process.

Proper planning for investments in IT can provide for opportunities of shared technology
within and across agencies. Additionally planning for investments takes into account the
impact of planned initiatives on the computing environment. ITC reported that when it
selected its SAN solution at the end of FY2001, it had not yet made a decision to migrate
from the Novell NetWare operating environment to Microsoft Windows NT/2000 in
FY2002. ITC decided upon these two major initiatives within a relatively short period of
time. Compatibility with Novell was a primary requirement for its SAN technology. The
impact of the decision to migrate to the operating system altered the requirement for
Novell NetWare that was identified as a primary differentiating factor between the ITC
and WTB SAN solution. OMD in informal comments stated, “We could not have
foreseen the rapid decision to switch to the Windows environment even though it
occurred fairly soon after the SAN decision. Also, this had a fairly minimal overall cost
impact and the same technology could support Auctions requirements.”

Proper management of IT projects throughout the stages of the system life cycle results in
an entity’s ability to benefit from lessons learned. Lessons learned may be derived from
system implementations that experience overruns or schedule slippages, such as those
experienced with RAMIS and ULS. For example, the initial purchase order for RAMIS
was for $2.98M with system implementation scheduled for completion within two years
of the contract award date. By the end of FY2003, total outlays are expected to be
between $7.5M and $8.0M. At the time of this audit, not all modules of RAMIS had
been fully implemented.

The SAN selection process by ITC can also provide lessons that can enhance FCC’s IT
capital investment practices and selection of technology solutions. Specifically, the FCC
can benefit in its future selection of IT capital investments by giving more careful
consideration to future technology initiatives. ITC’s decision to migrate from Novell to
Microsoft essentially eliminated a primary differentiating factor between its SAN
requirements and that of WTB. This may have resulted in the realization of the
opportunity for a more integrated approach for selection of a shared SAN technology by
ITC and WTB and an increased synergy could have been achieved.

As agencies’ management of IT investments comes under the increased scrutiny of
government oversight agencies such as OMB and GAO, those which fail to utilize
adequate IT investment capital practice may experience difficulty in obtaining requested
budget amounts for IT-related needs.




                                           45
RECOMMENDATION: ESTABLISH AN EFFECTIVE IT CAPITAL
INVESTMENT PROGRAM


     Recommendation:            We recommend that the Federal Communications
  Establish an Effective IT     Commission implement an effective IT capital
     Capital Investment         investment program. The FCC’s IT capital investment
          Program               practices do not comply with either the Clinger-Cohen
                                Act or OMB Circular A-130. The procedures must
address the management of all major Commission investments in IT, including those for
the Auctions program.

The FCC’s IT capital investment program should include the following steps. First, all IT
high value expenditures, such as the SANs, must be approved by a formal capital
investment executive board. This oversight board should be composed of an appropriate
group of high level management personnel. The oversight board should also approve the
percentage of the investment charged to Auctions.

Secondly, the next iteration of the FCC Information Technology Capital Planning and
Investment Control (CPIC) guide should comply with both Circular A-130 and the
Clinger-Cohen Act. The CPIC guide should include the elements of OMB Circular A-
130 that were not referenced in the draft version reviewed by the audit team (see
Appendix 4 of this report). The CPIC guide must incorporate by reference relevant
documentation, including the SDLC methodology and the IT Strategic Plan. This
guidance should also include guidelines on determining the Auctions percentage for an IT
capital investment. We recommend that the CPIC guide be developed in this manner to
specifically identify all guidance that defines and provides guidance for the FCC’s IT
capital investment practices.

Finally, the CPIC guide and the IT capital investment program must be reviewed and
commented upon by the appropriate Bureau and Office stakeholders. This will help
insure agency-wide support and adoption of the guidance once it is implemented.

Implementation of the above recommendations should result in uniform, centralized
procedures for the selection, control, and evaluation of its IT investments. An effective
capital investment program can also help identify duplicate IT capital expenditures, such
as the $5,210,000 investment of four (4) SANs.




                                           46
ACRONYMS

AAS – Automated Auction System
A&IAD – Auctions & Industry Analysis Division
AO- Administrative Operations
BOCC – Budget Object Class Code
CAM – Central Account Managers
CDBS – Consolidated Database System
CFO – Chief Financial Officer
CIMS – Consumer Information Management System
CIO – Chief Information Officer
COOP – Continuity of Operation Plan
CORES – Commission’s Registration System
COSER - Canadian Co-Channel Serial Coordination Systems
CPIC - Capital Planning and Investment Control
CR – Continuing Resolution
CSR – Customer Service Representative
EA – Enterprise Architecture
EDOCS - Electronic Document Management System
GAO – Government Accounting Office
GPRA - Government Performance and Results Act
FCC – Federal Communications Commission
FFS – Federal Financial System
FTE – Full-time Equivalent
FY - Fiscal Year
ISAS – Integrated Spectrum Auction System
IT – Information Technology
ITC – Information Technology Center
ITIM – Information Technology Investment Management
LDRS – Leave Distribution Reporting System
LLP - Limited Liability Partnership
NANP – North American Numbering Plan
OIG – Office of Inspector General
OMB – Office of Management and Budget
OMD – Office Managing Director

                                             47
PIR – Post-implementation Review
PO – Purchase Order
PRA – Paperwork Reduction Act
RAMIS – Revenue Accounting & Management Information System
SAN – Storage Area Network
SDLC – Systems Development Life Cycle
TRM - Technical Reference Model
USAC – Universal Services Administrative Corporation
ULS – Universal Licensing System
USF – Universal Services Fund
WTB – Wireless Telecommunications Bureau




                                            48
                               APPENDICES



Appendix 1 - Overview of Auctions Program

Appendix 2 – FY2001 – FY2002 Auctions Program IT Vendor Expenditures

Appendix 3 – Auctionable Services History

Appendix 4 – Elements of Non-Compliance of DRAFT FCC IT Capital Planning
             and Investment Control Process with OMB A-130 Requirements

Appendix 5 – Index of Report Figures

Appendix 6 – Management Response

Appendix 7 – OIG Comments




                                       49
  Appendix 1

 Overview of the
Auctions Program




       50
                     Appendix 1 - Overview of the Auctions Program




                                 History of Auctions Program
   Overview of the
  Auctions Program               The Omnibus Budget Reconciliation Act of 1993 added
                                 Section 309(j) to the Communications Act of 1934.
As amended, this information is contained in section 309(j) of Title 47, Chapter 5 of the
United States Code. This section of the code establishes an auction program that gives
the Commission express authority to employ competitive bidding procedures to choose
among mutually exclusive applications for awarding initial licenses. Provisions of the
legislation require the Commission to establish a system of competitive bidding that
permits combinatorial bidding (Section 309(j)(3)). As a component of the auctions
program, the Commission was required to institute a loan program to promote economic
opportunity for a wide variety of applicants including small businesses, rural telephone
companies, and business owned by minority groups (Section 309(j)(4)). Additional
provisions state that proceeds obtained from the competitive bidding are to be deposited
in the Treasury, and in order to use carryover funds, the Commission must submit an
annual report detailing the expenditures incurred for operating the Auctions program
(Section 309(j)(8)). Section (B) of 309(j)(8) provides the types of expenditures that the
FCC is permitted to offset with proceeds retained from auctions. The auction authority
granted under the legislation expires on September 30, 2007 (Section 309(j)(11)).

Telecommunications services become “auctionable” after Congress enacts a law
regarding the service. The Commission then implements rulings in support of the
services through publishing “Notices of Proposed Rulemaking” (NPRM), and issuances
of “Reports and Orders” (R&O). A service is considered to be “auctionable” after the
publication of the R&O.

The first spectrum auction was conducted in FY1994, the year of the program’s
inception. To date there have been forty-three (43) auctions conducted.

Auctions are not necessarily conducted in the same fiscal year that the R&O for the
service was published. Additionally, auctions for services may be conducted on more
than one occasion, often spanning several fiscal years. The addition of auctionable
services through publishing R&Os since the inception of the Auctions program has
increased the variety and scope of work performed in support of the Auctions program.
Figure 38 is a summary of the number of additional services that became auctionable
(date of the R&O) by fiscal year. Appendix 3 provides a listing of the services that
became auctionable in each fiscal year.

                          FY94 FY95 FY96 FY97 FY98 FY99 FY00 FY01                       FY02
 Number of Additional
Auctionable Services by     3      4        3      6        3       0        5      0    4
      Fiscal Year
               Figure 38 – Number of Additional Auctionable Services by Fiscal Year




                                             51
                    Appendix 1 - Overview of the Auctions Program


Prior Audits of the Auctions Program

Since the inception of the Auctions program, the Commission’s Office of Inspector
General (IG) has conducted several audits of the Auctions program costs and
management practices. These audits have resulted in recommendations for improvement,
which were agreed to by FCC management. Each of the previous audits and their results
are summarized in this section.

       Audit of Fiscal Year 1994 Spectrum Auction Implementation Costs (FY 1995)
       The IG examined the system implemented by the Commission in FY 1994 to
       record and report auction cost information and to determine whether the system
       was providing timely, accurate and meaningful financial information to FCC
       management. During the audit, the IG determined that there was insufficient
       documentation to support all reported costs. As a result, the IG made the
       following recommendations to FCC management in its report issued on March 16,
       1996:
               Formally document the policies and procedures for creating, approving,
               processing, recording, and reporting auctions costs
               Review all audit questioned labor costs and determine the appropriate
               treatment for those costs;
               Review all audit questioned automation costs and determine the
               appropriate treatment for those costs; and,
               Review auction automation contracts to determine whether cost reports
               provided by contractors separately report auction costs.

       Follow-up Audit of the Auctions Cost Recovery System (FY1997)
       The Office of Inspector General (IG) performed an audit to follow-up on the
       status of the four (4) recommendations to FCC management that resulted from the
       Audit of FY1994 Spectrum Auction Implementation Cost. The IG concluded that
       FCC management had adopted the correct measures recommended as a result of
       the previous audit. The report also concluded that (1) FCC management had not
       updated its FCC Auction Cost Recovery Guidelines and Procedures manual to
       reflect the Commission's 1996 change from the National Finance Center
       (NFC) system to the Denver Administrative Service Center’s FFS application and
       (2) FCC Bureaus and Offices were not consistently charging Auctions for
       auctions related work performed by their employees.

In addition, the IG is in the process of conducting two (2) additional audits of the
Auctions program:

       The Audit of the Auction Budget and Financial Management Process is being
       performed to identify duplicative program activities, evaluate the effect of any
       identified duplicative activities, and recommend program changes.

       The Audit of the Auction Loan Portfolio and Related Activities is being
       conducted with the purpose of documenting the loan service provider’s role,
       assessing the Commission’s transition to a new service provider, and reviewing

                                             52
                     Appendix 1 - Overview of the Auctions Program

       the modules of the Revenue Accounting & Management Information System
       (RAMIS) being implemented in support of the loan program.


Management of the Auctions Program

The Auctions & Industry Analysis Division (A&IAD) of the Wireless
Telecommunications Bureau (WTB) is responsible for implementing the competitive
bidding authority provided to the Commission and managing the spectrum auctions.
Additionally, this division is responsible for all facets of the auctions including technical,
contracting, budgeting, legal marketing, payment, applications processing and
administrative functions.

The Auctions Operations Branch of A&IAD is responsible for designing, programming,
and planning auction events. The responsibilities of the branch include developing,
recommending and implementing methods and procedures for the conduct of the
auctions, and working in concert with the Legal Branch, and Finance and Market
Analysis Branch to implement effective and efficient methods for auctioning spectrum.

The A&IAD’s Auctions Automation Branch is responsible for the development, analysis,
and implementation of all facets of the automated programs associated with auctions.
This responsibility includes the development, testing, operation, and maintenance of
AAS, and the oversight of support services provided by contractor personnel and FCC
employees.

The Auctions Expenditure Management Branch, also a part of A&IAD, is responsible for
processing requested Auctions expenditures and assisting in the development of the
funding requirements for the Auction program. Since 1997, the Auctions Expenditure
Management Branch has prepared the annual Auctions Expenditure Report, which is
submitted to Congress. Additional responsibilities include the monitoring and
reconciliation of financial transactions incurred and maintenance of the tracking system
for all auctions-related expenditures.

In FY1996, the FCC published the Auctions Cost Recovery Guidelines in response to an
OIG special review. These guidelines provide the FCC’s interpretations of Section
309(j)(8)(b) of Title 7, Chapter 5 of the United States Code, which grants the FCC
authority to retain auction revenue to offset the cost of implementing the auction
program. The procedures identify and classify the types of costs that can be offset by
Auctions proceeds. The FCC in FY1999 made an update to the Auctions Cost Recovery
Guidelines. However, further legislative rulings have not been issued clarifying and
further defining the auctions costs that can be appropriately offset.

The Auctions budget is formulated through a budget “call” process. In past years,
Auctions put out a “call” for fund use to the various FCC Bureaus and Offices to
determine which groups anticipated having costs attributable to the Auctions program.
These requests, if appropriately justified were then incorporated into the Auctions budget
request. The Financial Operations group also sent out “calls” for Commission budget


                                              53
                    Appendix 1 - Overview of the Auctions Program

requests, but did not process Auctions requests. In 2002, the ownership of the Auctions
budget call process was transferred to the Financial Operations department in the Office
of the Managing Director (OMD) in order to centralize the process, and manage the funds
in the same manner as the Commission’s appropriated funds.

Auctions Technical Environment

Upon obtaining authority to conduct spectrum auctions, the FCC performed an analysis
of the business and technical requirements necessary to implement and operate the
auctions program. The results of this analysis indicated that the Commission’s primary
data network could not appropriately support the requirements of the auctions program,
specifically because of security and reliability needs. As a result, a separate physical
environment, an independent network and telephone system, and a separate group of
personnel were established.

In 1994, the Commission converted a United States Postal Service warehouse into an
onsite Auction Center. Auctions program support personnel was comprised of one (1)
federal employee and approximately twenty (20) contractors, who were responsible for
the development, testing, and implementation of the first generation of the Automated
Auctions System. Today Auctions hosts twenty (20) FTEs and 120 contracted personnel.
The initial processing environment consisted entirely of two (2) file and print servers,
four (4) database servers, forty (40) personal computers, and various printers in a stand-
alone environment. In comparison, the current Auctions architecture consists of seventy-
three (73) network devices (including routers, switches, dial-in boxes, firewalls, and load
balancers), 241 servers, and multiple network and Internet connections.

Since 1994, several changes have led to substantial modifications in the Auctions
processing environment. The Commission's licensing systems were enhanced and
modified to support the increased volume of licenses and the geographical nature of
auctionable radio services, as opposed to the site based licensing activities previously
conducted by the Commission. Revolutions in the technology environment, including the
Internet and web-based applications, brought about changes to the way auctions were
conducted. In addition, increased needs for security, backup, redundancy and disaster
recovery increased the size and complexity of the network. Another driver in the
expansion of the Auction program and processing environment was the changes in
auction theory. In 1994, simultaneous multiple round auction was revolutionary, whereas
today's environment requires more complex and efficient models, such as package
bidding, optimal versus sub-optimal solutions, two sided exchanges, and clock driven
auction activity. The combined effect of these factors was a transition from the original
Auctions processing environment described above, to the environment described in the
following paragraphs.

The system used to facilitate auctioning of spectrum is the Automated Auction System
(AAS). Phase out of AAS, which has been operational since 1994, is scheduled to begin
by the end of the third quarter of FY2004. The Integrated Spectrum Auction System
(ISAS) is in the planning and acquisition stage and will replace the current AAS system.
The total projected costs for ISAS for the planning, full acquisition, and maintenance of

                                            54
                    Appendix 1 - Overview of the Auctions Program

the system over the period of FY2003 – FY2007 is $71.4M. ISAS is expected to provide
Auctions with more flexibility and efficiency in auction set up, pre-auction review,
bidding, round results, and post auction processing. The ISAS design will allow for
redevelopment of databases and processing systems to integrate all Auction components
as well as simultaneous multiple round and package bidding into a single system. The
new system will consolidate multiple auction systems into a single auction platform and
is expected to result in reduced ongoing maintenance costs.

The Auctions network is used to support AAS for conducting spectrum Auctions.
Additionally, the network supports the development, testing, and operation of the
Universal Licensing System (ULS). The network spans three physical locations – the
Portals I and Portals II facilities in Washington, DC and the Consumer Center located in
Gettysburg Pennsylvania. The Gettysburg facility is connected to Portals II via an
Ethernet clear channel 45 Mb T3 circuit. This data channel is also used to support non-
Auctions communications between the Gettysburg facility and the Washington DC
headquarters. The Gettysburg and Portals locations can operate independently, with data
being replicated between the sites for continuous operations in the event of a catastrophic
system failure at one site. Each of the three physical locations has an independent
Internet connection through independent Internet Service Providers (ISPs), with each
connection protected by two pairs of firewalls to create a demilitarized zone (DMZ).

In addition to the development of ISAS, several other Auctions network architectural
initiatives underway. These initiatives are intended to further develop the Auctions
technical environment to provide for improved network security, hardware/software
upgrades, data/network assurance, and storage management. Some of the architectural
initiatives are:

           A Solaris version upgrade.

           Purchase and installation of a SUN database server at the Gettysburg site and
           Sun servers in Washington, DC to house AAS and ULS production databases.

           Addition of another test environment for AAS.

           Separation of the ULS and AAS onto separate, dedicated networks.

           Addition of a firewall between the Auctions and ITC Networks, and a tertiary
           firewall pair at each Internet connection.

           Implementation of Storage Area Network (SAN) technology.

           Addition of dual core switches and routers in Portal II and Gettysburg
           facilities to provide redundant network connectivity for servers.

           Enhanced backup technology, including implementation of enterprise-level
           tape backup with site-to-site replication.




                                            55
                      Appendix 2

FY2001 – FY2002 Auctions Program IT Vendor Expenditures




                          56
                   Appendix 2 – FY2001- FY2002 Auctions Program IT Vendor Expenditures



          The following is a summary of the top ten vendors experiencing the largest increase in
          Auctions program expenditures from FY2001 to FY2002. The total amount of
          expenditures and fiscal year change for the five (5) recurring vendors in both fiscal years is
          provided. (Note: This data reflects the fiscal year in which the expenditure was made, not
          necessarily the year in which the service was performed):

Vendor
(Rank                    IT                                                                                  Increase
  in        IT         Service                                               FY01            FY02          from FY01-
FY02)     Related     Provider              Service Provided              Expenditures    Expenditures        FY02
                                   RAMIS, ULS, AAS, Collections
                                   maintenance, programming,
  1*         a            a        development, production, and
                                   technical support                         $6,791,778    $12,351,375      $5,559,597
                                   Auctions network
  2*         a            a        integration/support, and ULS
                                   telephone support                         $1,910,663     $5,181,322      $3,270,659
                                   Auctions & licensing Sybase
                                   technical support; ULS Sybase &
                                   Powerbuilder technical support;
  3*         a            a        Collections technical assistance;
                                   Auctions Internet/Intranet
                                   assistance; EDOCS development,
                                   COSER support                             $2,086,164     $3,873,841      $1,787,677

   4
                                   Gettysburg rent                             $38,596      $1,787,713      $1,749,117
                                   Licensing technical & data entry
                                   support; RAMIS/CORES
                                   administrative support; Auctions
   5
                                   help desk support; FO file
                                   maintenance; agency inventory
                                   maintenance; other                        $2,500,083     $4,132,434      $1,632,351
                                   Servers for ULS and AAS
   6         a                     production environment                    $1,696,591     $3,083,159      $1,386,568
                                   Auctions network support;
  7*         a            a        Gettysburg telecommunications
                                   support                                    $521,039      $1,849,659      $1,328,620

  8**                     a
             a
                               Systems development support                          $0        $701,710        $701,710
                               Performance of Certification &
  9*         a          a      Accreditations and Security,
                               Testing & Evaluations                           $46,880        $638,129        $591,249
  10                           COTR Administrative support                     $38,189        $574,131        $535,942
Total Auctions Program Expenditure Increase for Five (5)
                                                                            $11,356,524    $23,894,326     $12,537,802
Recurring IT Service Providers
            * Recurring IT Service Providers
            **New vendor in FY02; not included in ‘Total’ figures above



                                                              57
    Appendix 3

Auctionable Services
      History




         58
                        Appendix 3 – Auctionable Services History

The following is a summary of auctionable services by the date of publication of the
Report and Order by fiscal year:

1994
→ Narrowband Personal Communication Services (PCS)
→ Interactive Video and Data Service
→ A-F Block PCS

1995
→ Location and Monitoring Services
→ Multipoint Distribution Service
→ General Wireless Communications Service
→ 900 MHz Specialized Mobile Radio (SMR)

1996
→ Direct Broadcast Satellite Service
→ 800 MHz SMR
→ 220 Megahertz (MHz)

1997
→ Cellular Unserved
→ Wireless Communication Services
→ Paging
→ Digital Audio Radio Service
→ Local Multipoint Distribution Service
→ Very High Frequency (VHF) Public Coast

1998
→ 39 Gigahertz (GHz)
→ Broadcast, FM Broadcast, New AM Broadcast Station, New Analog Television, Low Power
   Television
→ C-F Block Broadband PCS

1999
No new Report and Orders

2000
→ Upper 700MHz Band
→ Upper 700 MHz Guard Band
→ Multiple Address System Spectrum
→ 24 GHz, Digital Electronic Message Service
→ C&F Block PCS

2001
No new Report and Orders

2002
→ Lower 700 MHz band
→ Cellular Rural Service Area
→ Multi-channel Video Distribution and Data Service
→ 1670-1675 MHz Band Nationwide License


                                               59
                          Appendix 4

  Elements of Non-Compliance of the DRAFT FCC Information
Technology Capital Planning and Investment Control Process with
                   OMB A-130 Requirements




                              60
     Appendix 4 – Elements of Non-Compliance of DRAFT FCC IT Capital Planning and
                 Investment Control Process with OMB A-130 Requirements




            OMB A-130 Requirement                           Compliance Status of DRAFT IT Capital Planning
                                                                    & Investment Control Process
8.b.(1).(b): What must an agency do as part of          Information contained in the Draft Information
the selection component of the capital planning         Technology Capital Planning and Investment
process? It must:                                       Control Process
 (ii) Ensure that decisions to improve existing         An analysis of this nature is not referenced in the draft
 information systems or develop new information         procedures. However, for those projects subject to
 systems are initiated only when no alternative         the SDLC, the Proposal phase includes this activity.
 private sector or governmental source can              Specific reference to this element, which is defined in
 efficiently meet the need;                             the SDLC, should be made in the finalized CPIC
                                                        guide.


 (iii) Support work processes that it has simplified    For projects not subject to the SDLC, this is not
 or otherwise redesigned to reduce costs, improve       explicitly stated. However, for projects subject to the
 effectiveness, and make maximum use of                 SDLC an analysis of COTS packages is required.
 commercial, off-the-shelf technology;                  Specific reference to this element, which is defined in
                                                        the SDLC, should be made in the finalized CPIC
                                                        guide.
 (iv) Reduce risk by avoiding or isolating custom       An analysis of this nature is not referenced in the draft
 designed components, using components that can         procedures.
 be fully tested or prototyped prior to production,
 and ensuring involvement and support of users;
 (v) Demonstrate a projected return on the              An analysis of this nature is not referenced in the draft
 investment that is clearly equal to or better than     procedures.
 alternative uses of available public resources.
 The return may include improved mission
 performance in accordance with GPRA measures,
 reduced cost, increased quality, speed, or
 flexibility; as well as increased customer and
 employee satisfaction. The return should reflect
 such risk factors as the project's technical
 complexity, the agency's management capacity,
 the likelihood of cost overruns, and the
 consequences of under- or non-performance.
 Return on investment should, where appropriate,
 reflect actual returns observed through pilot
 projects and prototypes;
 (vi) Prepare and update a benefit-cost analysis        An analysis of this nature is not referenced in the draft
 (BCA) for each information system throughout its       procedures, however for those systems required to
 life cycle. A BCA will provide a level of detail       follow the SDLC, a BCA is required during the Project
 proportionate to the size of the investment, rely on   Proposal phase. Specific reference to this element,
 systematic measures of mission performance, and        which is defined in the SDLC, should be made in the
 be consistent with the methodology described in        finalized CPIC guide.
 OMB Circular No. A-94, "Guidelines and Discount
 Rates for Benefit-Cost Analysis of Federal
 Programs";




                                                       61
     Appendix 4 – Elements of Non-Compliance of DRAFT FCC IT Capital Planning and
                 Investment Control Process with OMB A-130 Requirements

            OMB A-130 Requirement                          Compliance Status of DRAFT IT Capital Planning
                                                                   & Investment Control Process
 (ix) Ensure that improvements to existing             An analysis of this nature is not referenced in the draft
 information systems and the development of            procedures.
 planned information systems do not unnecessarily
 duplicate IT capabilities within the same agency,
 from other agencies, or from the private sector;
 (x) Ensure that the selected system or process        An analysis of this nature is not referenced in the draft
 maximizes the usefulness of information,              procedures.
 minimizes the burden on the public, and
 preserves the appropriate integrity, usability,
 availability, and confidentiality of information
 throughout the life cycle of the information, as
 determined in accordance with the PRA and the
 Federal Records Act. This portion must
 specifically address the planning and budgeting
 for the information collection burden imposed on
 the public as defined by 5 CFR 1320;
 (xi) Establish oversight mechanisms, consistent       An analysis of this nature is not referenced in the draft
 with Appendix III of this Circular, to evaluate       procedures. However, for those projects subject to
 systematically and ensure the continuing security,    the SDLC, the Design and Development phases
 interoperability, and availability of systems and     include these activities. Specific reference to this
 their data;                                           element, which is defined in the SDLC, should be
                                                       made in the finalized CPIC guide.
 (xii) Ensure that Federal information system          An analysis of this nature is not referenced in the draft
 requirements do not unnecessarily restrict the        procedures. However a review of regulations and
 prerogatives of state, local and tribal               statutes is included in the Initiation phase of the SDLC
 governments; and                                      phase. Specific reference to this element, which is
                                                       defined in the SDLC, should be made in the finalized
                                                       CPIC guide.
 (xiii) Ensure that the selected system or process     An analysis of this nature is not referenced in the draft
 facilitates accessibility under the Rehabilitation    procedures. However, for those projects subject to
 Act of 1973, as amended.                              the SDLC, design specifications are to address
                                                       applicable laws included accessibility regulations.
                                                       Specific reference to this element, which is defined in
                                                       the SDLC, should be made in the finalized CPIC
                                                       guide.
8.b.(1).(c) What must an agency do as part of the      Information contained in the Draft Information
control component of the capital planning              Technology Capital Planning and Investment
process?                                               Control Process
 (iv) Prepare and update a strategy that identifies    An analysis of this nature is not referenced in the draft
 and mitigates risks associated with each              procedures. However, in the Requirements phase of
 information system;                                   the SDLC, reference is made to identifying risks that
                                                       will require specific risk management. Specific
                                                       reference to this element, which is defined in the
                                                       SDLC, should be made in the finalized CPIC guide.
 (iv) Ensure that financial management systems         An analysis of this nature is not referenced in the draft
 conform to the requirements of OMB Circular No.       procedures.
 A-127, "Financial Management Systems;"




                                                      62
     Appendix 4 – Elements of Non-Compliance of DRAFT FCC IT Capital Planning and
                 Investment Control Process with OMB A-130 Requirements

            OMB A-130 Requirement                          Compliance Status of DRAFT IT Capital Planning
                                                                   & Investment Control Process
 (v) Provide for the appropriate management and        An analysis of this nature is not referenced in the draft
 disposition of records in accordance with the         procedures. However, for major applications the
 Federal Records Act.                                  requirement is to be addressed in system security
                                                       plans, as outlined by the plan template. The SDLC
                                                       methodology requires completion of the plan during
                                                       the design and development phase. Specific
                                                       reference to this element, which is defined in the
                                                       SDLC, should be made in the finalized CPIC guide.
 (vi) Ensure that agency EA procedures are being       An analysis of this nature is not referenced in the draft
 followed. This includes ensuring that EA              procedures. However, the element is required by the
 milestones are reached and documentation is           Information Technology Strategic Plan as a
 updated as needed.                                    responsibility of the Architectural Review Committee.
                                                       Specific reference to this element, which is defined in
                                                       the SDLC, should be made in the finalized CPIC
                                                       guide.
8.b.(1).(d) What must an agency do as part of the      Information contained in the Draft Information
evaluation component of the capital planning           Technology Capital Planning and Investment
process?                                               Control Process
 (i) Conduct post-implementation reviews of            For projects not subject to the SDLC, this type of
 information systems and information resource          review is not stated. However, for projects subject to
 management processes to validate estimated            the SDLC a Post Implementation Review is to be
 benefits and costs, and document effective            conducted. Specific reference to this element, which
 management practices for broader use;                 is defined in the SDLC, should be made in the
                                                       finalized CPIC guide.
 (ii) Evaluate systems to ensure positive return on    A review of this nature is referenced in the draft
 investment and decide whether continuation,           procedures; however, a template has not yet been
 modification, or termination of the systems is        developed for conducting the analysis.
 necessary to meet agency mission requirements.
 (iii) Document lessons learned from the post-         For projects not subject to the SDLC, this type of
 implementation reviews. Redesign oversight            review is not stated. However, for projects subject to
 mechanisms and performance levels to                  the SDLC a Post Implementation Review is to be
 incorporate acquired knowledge.                       conducted. Specific reference to this element, which
                                                       is defined in the SDLC, should be made in the
                                                       finalized CPIC guide.
 (iv) Re-assess an investment's business case,         A review of this nature is referenced in the draft
 technical compliance, and compliance against the      procedures; however, a template has not yet been
 EA.                                                   developed for conducting the analysis.




                                                      63
  Appendix 5

Index of Figures




       64
                                                       Appendix 5 – Index of Figures

The following is an index of figures included in the Report on Fiscal Year 2002 Audit of
Auctions Information Technology Capital Investment Practices.

Figure 1 - FY Auctions Program Budget Requests and Percentage Change ............................................ 11
Figure 2 - FY Auctions Program Budget Request .................................................................................... 11
Figure 3 - Auctions Program Fiscal Year Receipts................................................................................... 12
Figure 4 - FY Auctions Program Cash Receipts....................................................................................... 12
Figure 5 - Total Auctions Cash Receipts to Expenditures ........................................................................ 12
Figure 6 - FY Auctions Program Expenditures ........................................................................................ 13
Figure 7 - FY Percentage Change in Auctions Program Expenditures..................................................... 13
Figure 8 - FY1999 Auctions Program Expenditures by BOCC................................................................ 14
Figure 9 - FY2000 Auctions Program Expenditures by BOCC................................................................ 14
Figure 10 - FY2001 Auctions Program Expenditures by BOCC................................................................ 15
Figure 11 - FY2002 Auctions Program Obligations by BOCC .................................................................. 15
Figure 12 - FY1999-FY2003 Auctions Program Overhead Rates, Costs, and Percentage Change............ 16
Figure 13 - FY2000 - FY2002 Auctions Program Total Contractor Services Costs.................................. 18
Figure 14 - FY1999 - FY2003 Contractor-Other Services Costs............................................................... 18
Figure 15 - FY Percentage Change in Auction Program Contracts – Other Services Costs ...................... 19
Figure 16 - FY2001-FY2002 Costs for Top 5 Recurring IT Vendors/Service Providers........................... 19
Figure 17 - FY2001-FY2003 Loan Portfolio Costs .................................................................................... 20
Figure 18 - Automated Auctions System Costs by Fiscal Year.................................................................. 21
Figure 19 - FY2000-FY2003 Total ULS Costs and Percentage Change .................................................... 22
Figure 20 - FY2001-FY2002 ULS Licensing Transactions........................................................................ 23
Figure 21 - FY2001-FY2002 ULS New Applications Transactions .......................................................... 23
Figure 22 - FY2000-FY2003 Total RAMIS Costs and Percentage Change ............................................... 25
Figure 23 - FY2000-FY2002 Financial Statement Audit Costs and Funding............................................. 25
Figure 24 - FY1999-FY2001 Public Accounting Firm Costs Funded by Auctions Program..................... 26
Figure 25 - FY1999 – FY2003 Auctions Program Centralized Contractor – Other Services Costs .......... 27
Figure 26 - FY1999-FY2003 Auctions Program Personnel Compensation Costs ..................................... 27
Figure 27 - Fiscal Year Change in Personnel Compensation Cost............................................................. 28
Figure 28 - FY1999-FY2003 Auctions Program Personnel Benefits Costs ............................................... 28
Figure 29 - FY Percentage Change in Auctions Program Personnel Benefits Costs .................................. 28
Figure 30 - FY199-FY2003 Personnel Compensation & Benefits Costs and Percentage Increase............ 29
Figure 31 - FY1999 – FY2003 Auction Program Equipment Costs ........................................................... 29
Figure 32 - FY Percentage Change in Auctions Program Equipment Costs............................................... 30
Figure 33 - FY1999 – FY2003 Auctions Program Rent, Communications, & Utilities Costs ................... 33
Figure 34 - FY Percentage Change in Auctions Program Rent, Communications, & Utilities Costs......... 33
Figure 35 - FY1999 – FY2003 Auctions Program Centralized Rent, Communications, and Utilities Costs
     ............................................................................................................................................................ 34
Figure 36 - FY1999-FY2003 Costs for Non-material BOCCs ................................................................... 35
Figure 37 - ITIM Stages of Maturity and Critical Maturation Steps .......................................................... 39
Figure 38 - Number of Additional Auctionable Services by Fiscal Year ................................................... 51

                                                                               65
    Appendix 6

Management Response
                                                                                      Attachment




      RESPONSE OF OFFICE OF MANAGING DIRECTOR AND WIRELESS
                  TELECOMMUNICATIONS BUREAU TO
    DRAFT REPORT ON AUDIT OF AUCTIONS INFORMATION TECHNOLOGY
                   CAPITAL INVESTMENT PRACTICES
               (REPORT NO. 02-AUD-03-12, AUGUST 7, 2003)




Finding: The analysis of data provided indicates that 4.13% and 6.98% of the new licenses
processed in FY2001 and FY2002, respectively, were for auctionable licenses. However, the
Auctions program funds 90% of ULS costs. (page 23)

Response: The funding splits are not based just on supporting new licensing activity. For
instance, the number of transactions or new licenses is not a good basis for allocating the cost of
ULS, because types of licenses may differ greatly in unit cost, e.g., granting a broadcast license
(which is auctionable) may involve a great deal more work and expense than granting an Amateur
Radio license (which is not auctionable). And, most of the maintenance expense is associated
with program code and facilities that support access to auction-related license data. We do agree
that the auctions/appropriated funding splits should be reviewed periodically to ensure that it
remains valid. Even so, we believe that a figure as high as (or higher than) the current auctions
split can continue to be justified.


Finding: [T]he majority of licensing costs attributed to the Auctions program for ULS are for
non-auctions related licensing activities as defined by FCC’s guidance issued on September 1,
1999. (page 23)

Response: The report suggests that the ULS is too heavily funded by auction program monies,
and that an appropriate method for assigning monies would entail the use of an
auction/appropriated funding scheme that mirrors the percentage of auctionable/non-auctionable
licenses in the ULS inventory. We strongly disagree with this conclusion. Within the Auction’s
Program, licensing and direct auction activities are inexorably intertwined. Without the data
provided by licensing, the auction program would be greatly impaired; similarly, without the
requirement of auctioning spectrum, there would be little need for the sophistication and
robustness of the ULS. The ULS, therefore, supports the core of the auction program and
improves its efforts to effectively and efficiently manage our national spectrum resources.
Specifically, the data provided in the ULS assists the industry in performing due diligence on the
license available at auction. ULS provides auction participants with information on available
markets that allows them to prepare business plans that fully exploit the spectrum’s potential to
deliver the greatest benefits to the public. Auction bidders employ this information to mitigate
the risk of participating in the auction, allowing them to more confidently bid upon the spectrum
at auction. Without the data supplied by ULS, bidders would be less inclined to robustly compete
in the Commission’s auctions. In this way, the ULS differs from other Commission licensing



                                                1
                                                                                      Attachment


databases, which were designed primarily to grant construction permits, licenses, and to track
regulatory fee collections. The Commission has a statutory obligation to rapidly deploy spectrum
and services for the benefit of the public. Our auction program, together with the ULS, allows the
Commission to fulfill its Congressional mandates.


As the Commission’s Spectrum Policy Task Force’s (SPTF) Report recognized, “the government
has an almost impossible task in trying to keep pace with the ever-increasing demand for
spectrum and the continuing advances in wireless technology and applications.” To that end, the
Commission strives to achieve flexible spectrum allocation and assignment, largely through the
use of auctions, to meet the growing needs of industry’s demand for spectrum. The SPTF has
noted that the Commission’s policies and processes must evolve with the “consumer-driven
evolution of new wireless technologies, devices and services.” The ULS allows for the
Commission to advance its spectrum policies, especially those that involve the use of spectrum
auctions as the transitional mechanism. In this respect, the development of new spectrum
services subject to auction hinges upon potential service providers and auction participants
knowing the incumbents utilizing the spectrum both within the bands (e.g. 700 MHz) and in
adjacent bands (e.g. AWS) in which they seek to provide service.

Essentially, the ULS provides the industry with the data necessary to mitigate marketplace risk, to
determine their business judgments for the value and acquisition of spectrum, and to expedite
delivery of service to the public. Without the ULS, the auction program’s ability to assign
licenses to those who value them the most would be significantly diminished. Moreover, the
fundamental intertwining of the ULS and the auction’s program is so critical to the Commission’s
ability to achieve its statutory obligations that WTB intends to modify its allocation method to
charge all or nearly all (from the current 10%) costs of ULS to auction’s funds from this point
forward. Unfortunately, this draft report does not fully consider the underlying statutory
obligations of the Auction Program and asserts findings that reflect a very narrow approach to the
business of conducting competitive bidding. For these reasons, we believe that the draft report
does not adequately reflect the importance of maintaining a highly reliable and accurate licensing
system as a way of developing new services subject to auction.

Finding: By purchasing one SAN to support FCC headquarters operations, the Commission
could possibly have reduced these expenditures by approximately $1.76M. Also, before ITC
spends an additional $.50M for a SAN in Gettysburg, both ITC and Auctions should formally
study and report upon the feasibility and cost effectiveness of using the present Gettysburg SAN
for contingency planning. (page 32)

Response: During the summer of 2001, the ITC initiated a very detailed systems analysis of large
capacity centralized storage products by the firm of Integrated Mass Storage Systems (IMSS).
This analysis was initiated due to the input gathered by the ITC in the winter of 2001 during the
compilation of the Information Technology Strategic Plan. The strategic plan input and
subsequent IMSS analysis report clearly illustrated the need for a centralized mass storage device
that could accommodate the data storage and data archive requirements of the Commission. The
documentation provided a very detailed plan for how this technology should be implemented
inside the Commission. If the ITC and WTB computer rooms had been originally placed in close



                                                2
                                                                                      Attachment


proximity to each other, it is possible that the WTB storage requirements could have been met
through an expanded ITC investment. However, with the separation and physical distance
between the two computer rooms, the use of a shared single mass storage device was not advised.

The cost saving figures that are cited in the Auctions Audit do not reflect the fact that a single
SAN solution approach would still need the same total amount of disk storage as is found in the
two individual solutions. Much of the total expenditure would still have had to have been
incurred because the separate WTB and ITC SAN solutions are not large enough individually to
meet the data storage needs of both organizations. The meshed fiber channel architecture for a
combined SAN solution would represent the same size investment as the two separate solutions
due to the large number of host devices that are being connected. The current tape jukebox
solutions for the two separate SANs also represent a similar cost outlay when compared to a
single SAN solution device. Due to the greater complexities of tape jukebox devices that contain
very large numbers of tape drives the economics-of-scale advantages of purchasing a single tape
jukebox solution begin to break down. Overall, due to the large number of host servers that are
being attached to the two SAN solutions it is unrealistic to assume that the large $2,260,000 cost
advantage of the single SAN solution cited in the Auctions Audit report could ever be realized.

Due to the requirements to provide a strong COOP solution for the Commission at the Gettysburg
facility, it is imperative that the same architecture be implemented for the COOP as is found in
the Washington DC facility. One of the goals that the IMSS design plan called for was to provide
consistency in facility architectures to accommodate the Commission’s COOP requirements. To
ensure the success of the COOP it is critical that the same tape media, tape formats, backup
software, and backup procedures reside at both the Washington DC and Gettysburg facilities. If
the WTB SAN at Gettysburg were to be used for the Commission’s COOP solution, system-wide
architectural incompatibilities would be introduced that would result in significant delays and
complications preventing a COOP event from being implemented within the timeframes that have
been prescribed by the Commission’s Bureaus and Offices. It is not reasonable to suggest that an
architecture as important as the Commission’s COOP solution be relegated to simply using
whatever system architecture happens to be found in Gettysburg at the time.


Finding: Once determined, the most appropriate method should be consistently used on
rental/costs. This is not occurring. For example, shared security upgrades to the FCC’s
Gettysburg building were charged 100% to Auctions. (page 36)

 Response: The OIG conducted an audit of the security over the Auction program locations at
headquarters and at Gettysburg. In some cases the audit recommendations were more extensive
and expensive than the planned agency security upgrades. As security improvements were
implemented the costs were generally distributed between Auctions and S & E except when the
audit recommendations exceeded the agency’s planned upgrades. When the audit
recommendations exceeded the agency’s plans, the additional costs to accomplish the audit
recommendations were deemed strictly related to the Auctions program and charged 100% to the
that program.




                                                3
                                                                                     Attachment


Finding: The FCC Information Technology Capital Planning and Investment Control Process is
in draft format and does not meet the requirements of the Clinger Cohen Act of 1996.
Specifically, the document does not:
• include minimum criteria to be applied in considering whether to undertake a particular
investment in information systems;
• provide for identifying information systems investments that would result in shared benefits or
costs for other Federal agencies or State or local governments; or
• provide for identifying for a proposed investment quantifiable measurements for determining
the net benefits and risks of the investment. (page 44)

Response: The FCC’s IT Capital Planning and Investment Control Process (CPIC) includes each
of the features in the bullet-points above, through our System Development Life Cycle (SDLC)
methodology, which is incorporated by reference in the CPIC. The SDLC applies to all
information systems development or systems maintenance activities costs exceeding $100,000 in
any fiscal year or $300,000 over the life of the project. In many cases, a project falling below
these dollar thresholds may not go through the same review process as a high value IT capital
investment, because the costs of doing so may exceed the potential savings.


Finding: First, all IT high value expenditures, such as the SANs, must be approved by a formal
capital investment executive board. (page 46)

Response: We concur with this finding.


Finding: The oversight board should also approve the percentage of the investment charged to
Auctions. (page 46)

Response: Neither the Clinger-Cohen Act nor OMB Circular A-130 require the board to approve
the division of an investment’s cost between funding sources. Moreover, the legally permitted
uses of auction revenue are determined under legislation unrelated to the Act, that is, by 47 USC
309 and we believe the appropriate responsibility for these determinations rests with the Agency
itself, i.e., the Managing Director and/or the Chief Financial Officer (as delegated). Approving
the auctions split for an investment has nothing to do with capital planning and investment
determinations – these are simply funding source determinations.

Recommendation: We recommend that the Federal Communications Commission implement an
effective IT capital investment program. (page 46)

Response: Concur. The FCC is currently engaged in providing for a structured, integrated
approach to managing our IT expenditures in alignment with the Clinger-Cohen Act and OMB
guidance. This process, to be completed in fiscal year 2004, will ensure that all high value IT
capital investments align with the mission and support business needs while minimizing risks and
maximizing returns throughout the investment’s lifecycle.




                                                4
 Appendix 7

OIG Comments
                                    Appendix 7
Response of the Office of Inspector General (OIG) to Management’s Comments on
                   the Auctions IT Capital Investment Report



Listed below are the OIG responses to management’s comments on the Auctions IT
Capital Investment Report. The report observation to which Federal Communication
Commission (FCC) management responded is first. The comments of management are in
italics. These comments have been repeated in their entirety. The OIG response is
immediately below. Appendix 6 contains the verbatim text of management’s comments.


OBSERVATION

The analysis of data provided indicates that 4.13% and 6.98% of the new licenses
processed in FY2001 and FY2002, respectively, were for auctionable licenses. However,
the Auctions program funds 90% of ULS costs. (Page 23)

MANAGEMENT COMMENTS

The funding splits are not based just on supporting new licensing activity. For instance,
the number of transactions or new licenses is not a good basis for allocating the cost of
ULS, because types of licenses may differ greatly in unit cost, e.g., granting a broadcast
license (which is auctionable) may involve a great deal more work and expense than
granting an Amateur Radio license (which is not auctionable). And, most of the
maintenance expense is associated with program code and facilities that support access
to auction-related license data. We do agree that the auctions/appropriated funding
splits should be reviewed periodically to ensure that it remains valid. Even so, we
believe that a figure as high as (or higher than) the current auctions split can continue to
be justified.

OIG RESPONSE

This management observation does not consider the information in Figure 20 which is
also on page 23. Figure 20 analyzes the percentage of total ULS transactions that were
auctionable. This analysis indicates that 4.09% and 5.15% of ULS transactions processed
in FY2001 and FY2002, respectively, were for auctionable licenses. These percentages
are lower than those quoted for new licenses in the management response.

The purpose of this analysis is to point out that the 90/10 Auctions funding percentage is
obsolete and needs to be recalculated. We are not suggesting a specific Auctions funding
percentage. However, we are suggesting that the data on page 23 of this report be
considered, as well as the information contained in the Commission’s Spectrum Policy
Task Force report, when determining a new percentage.


OBSERVATION
                                    Appendix 7
Response of the Office of Inspector General (OIG) to Management’s Comments on
                   the Auctions IT Capital Investment Report


 The majority of licensing costs attributed to the Auctions program for ULS are for non-
Auctions related activities as defined by FCC’s guidance issued on September 1, 1999.
(Page 23)

MANAGEMENT COMMENTS

The report suggests that the ULS is too heavily funded by auction program monies, and
that an appropriate method for assigning monies would entail the use of an
auction/appropriated funding scheme that mirrors the percentage of auctionable/non-
auctionable licenses in the ULS inventory. We strongly disagree with this conclusion.
Within the Auction’s Program, licensing and direct auction activities are inexorably
intertwined. Without the data provided by licensing, the auction program would be
greatly impaired; similarly, without the requirement of auctioning spectrum, there would
be little need for the sophistication and robustness of the ULS. The ULS, therefore,
supports the core of the auction program and improves its efforts to effectively and
efficiently manage our national spectrum resources. Specifically, the data provided in the
ULS assists the industry in performing due diligence on the license available at auction.
ULS provides auction participants with information on available markets that allows
them to prepare business plans that fully exploit the spectrum’s potential to deliver the
greatest benefits to the public. Auction bidders employ this information to mitigate the
risk of participating in the auction, allowing them to more confidently bid upon the
spectrum at auction. Without the data supplied by ULS, bidders would be less inclined to
robustly compete in the Commission’s auctions. In this way, the ULS differs from other
Commission licensing databases, which were designed primarily to grant construction
permits, licenses, and to track regulatory fee collections. The Commission has a
statutory obligation to rapidly deploy spectrum and services for the benefit of the public.
Our auction program, together with the ULS, allows the Commission to fulfill its
Congressional mandates.

As the Commission’s Spectrum Policy Task Force’s (SPTF) Report recognized, “the
government has an almost impossible task in trying to keep pace with the ever-increasing
demand for spectrum and the continuing advances in wireless technology and
applications.” To that end, the Commission strives to achieve flexible spectrum
allocation and assignment, largely through the use of auctions, to meet the growing
needs of industry’s demand for spectrum. The SPTF has noted that the Commission’s
policies and processes must evolve with the “consumer-driven evolution of new wireless
technologies, devices and services.” The ULS allows for the Commission to advance its
spectrum policies, especially those that involve the use of spectrum auctions as the
transitional mechanism. In this respect, the development of new spectrum services
subject to auction hinges upon potential service providers and auction participants
knowing the incumbents utilizing the spectrum both within the bands (e.g. 700 MHz) and
in adjacent bands (e.g. AWS) in which they seek to provide service.
Essentially, the ULS provides the industry with the data necessary to mitigate
marketplace risk, to determine their business judgments for the value and acquisition of
                                    Appendix 7
Response of the Office of Inspector General (OIG) to Management’s Comments on
                   the Auctions IT Capital Investment Report


spectrum, and to expedite delivery of service to the public. Without the ULS, the auction
program’s ability to assign licenses to those who value them the most would be
significantly diminished. Moreover, the fundamental intertwining of the ULS and the
auction’s program is so critical to the Commission’s ability to achieve its statutory
obligations that WTB intends to modify its allocation method to charge all or nearly all
(from the current 10%) costs of ULS to auction’s funds from this point forward.
Unfortunately, this draft report does not fully consider the underlying statutory
obligations of the Auction Program and asserts findings that reflect a very narrow
approach to the business of conducting competitive bidding. For these reasons, we
believe that the draft report does not adequately reflect the importance of maintaining a
highly reliable and accurate licensing system as a way of developing new services subject
to auction.

OIG RESPONSE

The statement that the majority of licensing costs attributed to the Auctions program for
ULS are for non-Auctions related activities is supported by the Figures 20 and 21 on page
23 of this report. This conclusion is based on the FCC guidance issued on September 1,
1999. This guidance is still in effect.

In its response, management appears to believe that the findings of the Spectrum Policy
Task Force have made the 1999 guidance obsolete. We recognize that the requirements
of flexible spectrum allocation may alter the definition of Auctions related activity in
ULS. If this is true, the Commission should revise its 1999 guidance and issue new
guidelines that appropriately incorporate the results of the Spectrum Policy Task Force.


OBSERVATION

 By purchasing one SAN to support FCC headquarters operations, the Commission could
possibly have reduced these expenditures by approximately 1.76M. Also before ITC
spends an additional $0.50M for a SAN in Gettysburg, both ITC and Auctions should
formally study and report upon the feasibility and cost effectiveness of using the present
Gettysburg SAN for contingency planning. (Page 32)

MANAGEMENT COMMENTS

During the summer of 2001, the ITC initiated a very detailed systems analysis of large
capacity centralized storage products by the firm of Integrated Mass Storage Systems
(IMSS). This analysis was initiated due to the input gathered by the ITC in the winter of
2001 during the compilation of the Information Technology Strategic Plan. The strategic
plan input and subsequent IMSS analysis report clearly illustrated the need for a
centralized mass storage device that could accommodate the data storage and data
archive requirements of the Commission. The documentation provided a very detailed
                                    Appendix 7
Response of the Office of Inspector General (OIG) to Management’s Comments on
                   the Auctions IT Capital Investment Report


plan for how this technology should be implemented inside the Commission. If the ITC
and WTB computer rooms had been originally placed in close proximity to each other, it
is possible that the WTB storage requirements could have been met through an expanded
ITC investment. However, with the separation and physical distance between the two
computer rooms, the use of a shared single mass storage device was not advised.
The cost saving figures that are cited in the Auctions Audit do not reflect the fact that a
single SAN solution approach would still need the same total amount of disk storage as is
found in the two individual solutions. Much of the total expenditure would still have had
to have been incurred because the separate WTB and ITC SAN solutions are not large
enough individually to meet the data storage needs of both organizations. The meshed
fiber channel architecture for a combined SAN solution would represent the same size
investment as the two separate solutions due to the large number of host devices that are
being connected. The current tape jukebox solutions for the two separate SANs also
represent a similar cost outlay when compared to a single SAN solution device. Due to
the greater complexities of tape jukebox devices that contain very large numbers of tape
drives the economics-of-scale advantages of purchasing a single tape jukebox solution
begin to break down. Overall, due to the large number of host servers that are being
attached to the two SAN solutions it is unrealistic to assume that the large $2,260,000
cost advantage of the single SAN solution cited in the Auctions Audit report could ever be
realized.
Due to the requirements to provide a strong COOP solution for the Commission at the
Gettysburg facility, it is imperative that the same architecture be implemented for the
COOP as is found in the Washington DC facility. One of the goals that the IMSS design
plan called for was to provide consistency in facility architectures to accommodate the
Commission’s COOP requirements. To ensure the success of the COOP it is critical that
the same tape media, tape formats, backup software, and backup procedures reside at
both the Washington DC and Gettysburg facilities. If the WTB SAN at Gettysburg were
to be used for the Commission’s COOP solution, system-wide architectural
incompatibilities would be introduced that would result in significant delays and
complications preventing a COOP event from being implemented within the timeframes
that have been prescribed by the Commission’s Bureaus and Offices. It is not reasonable
to suggest that an architecture as important as the Commission’s COOP solution be
relegated to simply using whatever system architecture happens to be found in
Gettysburg at the time.

OIG RESPONSE

In his May 27, 2003 written comments on the preliminary draft report, the Chief
Information Officer (CIO) stated that “the ITC SAN has the potential to support the entire
Commission infrastructure for data storage and backup capabilities.” If the CIO’s
statements are accurate, then the entire Auctions SAN was an unnecessary purchase.

Before spending another $500,000 of Commission funds, the OIG suggested that ITC and
WTB study the feasibility using the Auctions SAN. Because the Commission has a
                                    Appendix 7
Response of the Office of Inspector General (OIG) to Management’s Comments on
                   the Auctions IT Capital Investment Report


$600,000 SAN sitting in Gettysburg at this time, we still think that the FCC should
formally analyze and report on the feasibility of using the Auctions SAN for the COOP.

The Commission’s view of the SANs is at odds with published Office of Management
and Budget (OMB) standards. OMB Memorandum M-03-14, Reducing Cost and
Improving Quality in Federal Purchases of Commercial Software, issued June 2, 2003,
outlines steps Federal agencies should take to reform the uncoordinated approach
wasteful and ineffective to acquiring common software (and other information
technology) purchases. OMB Memorandum M-03-18, Implementation Guidance for the
E-Government Act of 2002, issued August 1, 2003, requires agency CIOs to insure the
interoperability of systems and to reuse technology where applicable. Having two
expensive “stovepipe” SANs in Gettysburg is at variance with these OMB authorities.


OBSERVATION

Once determined, the most appropriate method should be consistently used on
rental/costs. This is not occurring. For example, shared security upgrades to the FCC’s
Gettysburg building were changed 100% to Auctions. (Page 36)

MANAGEMENT COMMENTS

The OIG conducted an audit of the security over the Auction program locations at
headquarters and at Gettysburg. In some cases the audit recommendations were more
extensive and expensive than the planned agency security upgrades. As security
improvements were implemented the costs were generally distributed between Auctions
and S & E except when the audit recommendations exceeded the agency’s planned
upgrades. When the audit recommendations exceeded the agency’s plans, the additional
costs to accomplish the audit recommendations were deemed strictly related to the
Auctions program and charged 100% to the that program.

OIG RESPONSE

Using an OIG audit to justify Auctions funding is a specious rationale. The OIG justifies
its audit funding based on the percentage of Auctions activity of the program being
reviewed. Justifying funding on an OIG audit ignores the underlying program, whose
relationship to Auctions may have changed after the completion of the review.

OBSERVATION

The FCC Information Technology Capital Planning and Investment Control Process is in
draft format and does not meet the requirements of the Clinger-Cohen Act of 1996.
Specifically, the document does not:
                                    Appendix 7
Response of the Office of Inspector General (OIG) to Management’s Comments on
                   the Auctions IT Capital Investment Report



       •   include minimum criteria to be applied in considering whether to undertake a
           particular investment in information systems;
       •   provide for identifying information systems investments that would result in
           shared benefits or costs for other Federal agencies or State or local
           governments; or
       •   provide for identifying for a proposed investment quantifiable measurements
           for determining the net benefits and risks of the investment. (page 23)

MANAGEMENT COMMENTS

The FCC’s IT Capital Planning and Investment Control Process (CPIC) includes each of
the features in the bullet-points above, through our System Development Life Cycle
(SDLC) methodology, which is incorporated by reference in the CPIC. The SDLC applies
to all information systems development or systems maintenance activities costs exceeding
$100,000 in any fiscal year or $300,000 over the life of the project. In many cases, a
project falling below these dollar thresholds may not go through the same review process
as a high value IT capital investment, because the costs of doing so may exceed the
potential savings.

OIG RESPONSE

These items should be incorporated explicitly into the FCC’s Information Technology
Capital Planning and Investment Control Process. Leaving out such important
information systems standards makes the document incomplete. Referring by reference
to the SDLC makes the document difficult to effectively use.
Also, we noted the Information Technology Capital Planning and Investment Control
Process did not comply with eighteen (18) provisions of OMB Circular A-130. Please
refer to Appendix 4, Elements of Non-Compliance of the DRAFT FCC Information
Technology Capital Planning and Investment Control Process with OMB A-130
Requirements, of the report for details. These A-130 observations should be explicitly
incorporated into this document. The provisions included many that are already in the
SDLC, such as accessibility. No formal objections to these A-130 related observations
have been raised.


OBSERVATION

The oversight board should also approve the percentage of the investment charged to
Auctions. (page 46)

MANAGEMENT COMMENTS
                                    Appendix 7
Response of the Office of Inspector General (OIG) to Management’s Comments on
                   the Auctions IT Capital Investment Report


Neither the Clinger-Cohen Act nor OMB Circular A-130 require the board to approve
the division of an investment’s cost between funding sources. Moreover, the legally
permitted uses of auction revenue are determined under legislation unrelated to the Act,
that is, by 47 USC 309 and we believe the appropriate responsibility for these
determinations rests with the Agency itself, i.e., the Managing Director and/or the Chief
Financial Officer (as delegated). Approving the auctions split for an investment has
nothing to do with capital planning and investment determinations – these are simply
funding source determinations.

OIG RESPONSE

We agree that neither Clinger-Cohen Act nor Circular A-130 explicitly requires the
oversight board to approve the percentage of the investment charged to Auctions.
However, Auctions funding is an integral part of any investment decision at the FCC.
The decision to fund a Commission project sometimes turns upon the availability of
Auctions funds. Projects that do not receive Auctions funding often are not initiated.
At the FCC, the approval of the percentage of the investment charged to Auctions is such
an important factor in project funding that we think that the oversight board must also
approve the percentage of Auctions funding. The authority of the oversight board should
be at a high enough level to provide and enforce this type of decision making.
